NATIONAL CREDIT UNION ADMINISTRATION

    OFFICE OF INSPECTOR GENERAL



        MATERIAL LOSS REVIEW
                  OF
     HURON RIVER AREA CREDIT UNION


                     Report #OIG-08-10
                     November 26, 2008




                     William A. DeSarno
                     Inspector General


    Released by:                          Auditor-in-Charge:




       James Hagen                      W. Marvin Stith, CISA
    Deputy IG for Audits         Sr Information Technology Auditor
                                            CONTENTS

Section                                                                    Page

   I      EXECUTIVE SUMMARY                                                       1

  II      BACKGROUND                                                              3

  III     OBJECTIVES, SCOPE AND METHODOLOGY                                       5

  IV      RESULTS IN DETAIL                                                       7

                Why Huron River Area Credit Union Failed                           7

                Michigan State Supervisory Authority and NCUA                     16
                Supervision of Huron River Area Credit Union

                Observations and Lessons Learned                                  30

 APPENDICES

  A       Examination History                                                     34

  B       Correlation of Michigan State Supervisory Authority                     56
          Examination Findings and Recommendations to Huron
          Deficiencies Noted during the Final Examination of Huron
          Before it was Declared Insolvent

  C       Chronology of Events Surrounding Huron‟s Relationship and               60
          Agreements with CLC and the Florida Construction Loan
          Program

  D       Summary of the First Three Stages of a Financial Institution‟s          61
          Failure

  E       NCUA Management Comments                                                62
EXECUTIVE SUMMARY
The National Credit Union Administration (NCUA) Office of Inspector General
(OIG) conducted a Material Loss Review of Huron River Area Credit Union
(Huron). We reviewed Huron to: (1) determine the cause(s) of Huron‟s failure
and the resulting loss to the NCUSIF; and (2) assess NCUA‟s supervision of the
credit union. To achieve these objectives, we analyzed NCUA and Michigan
State Supervisory Authority (SSA) examination and supervision reports and
related correspondence; interviewed management and staff from NCUA Region I
and the Michigan SSA; and reviewed NCUA and SSA guides, policies and
procedures, NCUA Call Reports, and NCUA Financial Performance Reports
(FPRs).

We determined that credit risk and strategic risk were major factors in Huron‟s
failure. Huron management did not adequately manage and monitor the credit
risk within its loan program. In addition, Huron management made strategic
decisions that put Huron‟s continued financial viability at significant risk.
Specifically, Michigan SSA and NCUA examiners determined, and the OIG
agrees, that Huron management:

      Did not exercise due diligence by evaluating the third party relationship
      held with its lender, the Construction Loan Company (CLC);
      Allowed CLC to concentrate a majority of the credit union‟s loan portfolio
      in a speculative Florida real estate construction project;
      Allowed CLC to make construction loans to applicants outside the credit
      union‟s approved field of membership;
      Misclassified construction loans and violated NCUA‟s Member Business
      Loan (MBL) limits;
      Did not have adequate liquidity controls in its ALM Policy; and
      Failed to develop or follow adequate plans to guide the direction of the
      credit union and the Florida construction loan program.

We determined the following management actions also contributed to Huron‟s
failure:

      Huron management was not forthcoming with the Michigan SSA and
      NCUA examiners about the Florida construction loan program.
      Huron management may have ignored warnings regarding the expected
      decline of housing values, in particular those in the Florida real estate
      market.

In addition, we determined NCUA and Michigan SSA examiners may not have
adequately monitored or reacted prudently or timely to trends indicating the safe
and sound operation of Huron may have been in jeopardy. Consequently, NCUA
did not adequately and timely address the credit and strategic risks Huron
management caused by entering Huron into an inherently risky and uncontrolled

                                        1
construction lending program, which ultimately led to Huron‟s worsening liquidity
issues. Specifically, we determined:

      Although the Michigan SSA and NCUA examiners expressed concerns
      regarding Huron‟s liquidity, we believe they may not have adequately
      monitored or responded appropriately or timely to their concerns regarding
      this risk.
      We believe financial ratios and trends revealed Huron‟s worsening liquidity
      position well before NCUA and the Michigan SSA officially identified the
      severity of the issue during the January 2007 joint examination.
      Huron‟s liquidity position deteriorated rapidly after March 2005.

We made two suggestions and one recommendation to NCUA. We suggested
NCUA aggressively investigate and protect against perceived risks Federally
Insured State Credit Unions (FISCUs) may pose to the insurance fund. In
addition, we suggested (1) Region I officials continue a new procedure they
established where analysts provide a secondary review of national risk reports to
better monitor FISCUs, and (2) NCUA determine whether all Regional Offices
should incorporate these procedures to provide increased supervision of
FISCUs. We also recommended NCUA management issue a Supervisory Letter
to all Federal and State examiners to alert them of the need to (1) analyze and
understand financial ratios and trends individually and as a group and
(2) thoroughly analyze pertinent qualitative data in order to adequately assess
the safety and soundness of credit union operations.

Management concurred with the first suggestion and the recommendation.
Management stated NCUA recently reinforced the need for aggressive
investigation and protection against perceived risks in Letter to Credit Unions
No.: 08-CU-20 Evaluating Current Risks to Credit Unions. Management stated
the letter included supervisory guidance given to NCUA examiners about diligent
examination and supervision when potential risk to a credit union is identified. In
addition, management concurred in principle with the second suggestion.
Management stated if the suggestion is adopted on a national level, the specific
procedures should be left to each regional director to determine the proper flow
of information through their chain of command. A complete copy of
management‟s formal written response is attached at Appendix E.

We appreciate the courtesies and cooperation NCUA and Michigan SSA
management and staff provided to us during this review.




                                         2
Background

Huron River Area Credit Union

Huron River Area Credit Union (Huron), located in Ann Arbor, Michigan, was
chartered in 1937. Huron was a full service, federally insured state credit union
(FISCU), which served over 1,000 employer groups in southeastern Michigan.
Huron was located in NCUA‟s Region I.

On February 16, 2007, the State of Michigan‟s Office of Financial and Insurance
Regulation (a State Supervisory Authority (SSA)1 placed Huron into
conservatorship. The SSA state conservatorship was converted to a Federal
Conservatorship on March 23, 2007. The NCUA determined Huron to be
insolvent as of June 30, 2007. At that time, Huron‟s assets exceeded $268
million and served nearly 38,000 members. The NCUA Board involuntarily
liquidated Huron on November 17, 2007, and Detroit Edison Credit Union
(DECU) purchased the credit union‟s assets and liabilities for a premium of $41
million. The Purchase and Assumption by DECU resulted in a loss to the
National Credit Union Share Insurance Fund (NCUSIF) of approximately $38.7
million as of January 30, 2008. However, the final loss to the NCUSIF will not be
known until the final disposition of the assets held by the Asset Management and
Assistance Center.

NCUA Examination Process

Total Analysis Process

NCUA uses a total analysis process that includes: collecting, reviewing, and
interpreting data; reaching conclusions; making recommendations; and
developing action plans. The objectives of the total analysis process include
evaluating CAMEL2 components, and reviewing qualitative and quantitative
measures.

NCUA uses a CAMEL Rating System to provide an accurate and consistent
assessment of a credit union's financial condition and operations. The CAMEL
rating includes consideration of key ratios, supporting ratios, and trends.
Generally, the examiner uses the key ratios to evaluate and appraise the credit
union‟s overall financial condition. Examiners must assign the CAMEL rating
during an examination. Assigning the CAMEL rating completes the examination
process.




1
  Prior to February 1, 2008, the Michigan SSA was known as the Office of Financial and Insurance Services
(OFIS).
2
  The acronym CAMEL is derived from the following components: [C]apital Adequacy, [A]sset Quality,
[M]anagement, [E]arnings, and Asset/[L]iability Management

                                                    3
Examiner judgment affects the overall analytical process. An examiner‟s review
of data includes structural analysis3, trend analysis4, reasonableness analysis5,
variable data analysis6, and qualitative data analysis.7 Numerous ratios
measuring a variety of credit union functions provide the basis for analysis.
Examiners must understand these ratios both individually and as a group
because some individual ratios may not provide an accurate picture without a
review of the related trends. Financial indicators such as adverse trends,
unusual growth patterns, or concentration activities can serve as triggers of
changing risk and possible causes for future problems. NCUA also instructs
examiners to look behind the numbers to determine the significance of the
supporting ratios and trends. Furthermore, NCUA requires examiners to
determine whether material negative trends exist; ascertain the action needed to
reverse unfavorable trends; and formulate, with credit union management,
recommendations and plans to ensure implementation of these actions.

Risk-Focused Examination Program

In May 2002, NCUA announced its new Risk-Focused Examination (RFE)
Program, to be implemented in the fall of 2002. Risk-focused supervision
procedures often include both off-site and on-site work that includes reviewing
off-site monitoring tools and risk evaluation reports. The RFE process includes
reviewing seven categories of risk: Credit, Interest Rate, Liquidity, Transaction,
Compliance, Strategic, and Reputation. Examination planning tasks may include
(a) reviewing the prior examination report to identify the credit union‟s highest risk
areas and areas that require examiner follow-up; and (b) analyzing Call Report
and Financial Performance Report (FPR) trends. The extent of the plans
depends largely on the severity and direction of the risks detected in the credit
union‟s operation and on management‟s demonstrated ability to manage those
risks. A credit union‟s risk profile may change between examinations. Therefore,
the supervision process encourages the examiner to identify those changes in
profile through:

         Review of Call Reports;
         Communication with credit union staff; and
         Knowledge of current events affecting the credit union.


3
  Structural analysis includes the review of the component parts of a financial statement in relation to the
complete financial statement.
4
  Trend analysis involves comparing the component parts of a structural ratio to itself over several periods.
5
  As needed, the examiner performs reasonableness tests to ensure the accuracy of financial performance
ratios.
6
  Examiners can often analyze an examination area in many different ways. NCUA‟s total analysis process
enables examiners to look beyond the "static" balance sheet figures to more accurately assess the financial
condition, quality of service, and risk potential.
7
  Qualitative data includes information and conditions that are not measurable in dollars and cents,
percentages, numbers, etc., which have an important bearing on the credit union's current condition, and
which will affect its future. Qualitative data analysis may include assessing lending policies and practices,
internal controls, attitude and ability of the officials, risk measurement tools, risk management, and economic
conditions.

                                                      4
Supervision of FISCUs

NCUA‟s statutory authority and its guidelines indicate the agency has the legal
and fiduciary responsibility to ensure the safety of the NCUSIF. FISCUs receive
the same account insurance coverage under the NCUSIF as federally chartered
credit unions. Therefore, FISCUs are subject to the same review of risks as
other credit unions. The two most common types of on-site FISCU reviews are
an independent insurance review and a joint examination/insurance review.
During both reviews, NCUA limits its scope to risk issues negatively affecting the
NCUSIF. However, during an independent insurance review, NCUA examiners
limit their role to the review and analysis of risks to the NCUSIF only, rather than
to complete an examination of the FISCU. In joint examinations/insurance
reviews, both NCUA and the SSA examiners focus on risk issues, while the state
examiner also focuses on regulatory concerns.

NCUA examiners primarily monitor the financial condition and progress of
FISCUs by reviewing SSA examination reports, Call Reports, and FPRs. In
reviewing SSA reports, NCUA‟s concerns include whether:

         The SSA examiners adequately addressed material risks within the
         FISCUs;
         The credit union understands the seriousness of the risks; and
         An agreement or plan exists for resolving unacceptable risks in a timely
         manner.

The Federal Credit Union Act (FCU Act) requires that, because SSAs are
primarily responsible for the supervision of insured state credit unions, NCUA
should use the SSA examination reports to the maximum extent feasible.8
However, NCUA reserves the right to conduct an insurance review of any FISCU
as it deems necessary to determine its condition for insurance purposes.9


Objectives, Scope and Methodology

The FCU Act requires the NCUA Office of Inspector General (OIG) to conduct a
material loss review if the loss to the NCUSIF exceeds $10 million.10
Consequently, in accordance with the FCU Act and Chapter 3 of the NCUA
Special Assistance Manual, the OIG conducted a material loss review of Huron.

The objectives of our review were to: (1) determine the cause(s) of Huron‟s
failure and the resulting loss to the NCUSIF; and (2) assess NCUA‟s supervision

8
 The FCU Act, 12 U.S.C. § 1781(b)(1).
9
  The FCU Act, 12 U.S.C. § 1784(a).
10
   Specifically, the FCU Act, 12 U.S.C. § 1790d(j) requires that the IG conduct a review when the Fund has
incurred a material loss with respect to a credit union. A material loss is defined as (1) exceeding the sum of
$10 million and (2) an amount equal to 10 percent of the total assets of the CU at the time at which the
Board initiated assistance or was appointed liquidating agent.

                                                      5
of the credit union. The scope of our review included Huron‟s operations and
NCUA supervision from August 1998 through January 2007. 11 To accomplish
our objectives, we:

        Analyzed NCUA and Michigan SSA examination and supervision reports
        and related correspondence.
        Interviewed management and staff from NCUA Region I and the Michigan
        SSA.
        Reviewed NCUA and Michigan SSA guides, policies and procedures;
        NCUA Call Reports; and NCUA Financial Performance Reports (FPRs).




11
   NCUA conducted an on-site Interest Rate Risk Review and an on-site joint contact of Huron during the
period covered in the scope of this Material Loss Review. All other references made to examinations
throughout this report refer to on-site examinations by the Michigan SSA. NCUA completed reviews of the
SSA examination reports as required.

                                                   6
RESULTS IN DETAIL
We determined Huron management‟s actions contributed significantly to Huron
River Area Credit Union‟s failure. In addition, we determined NCUA and
Michigan SSA examiners may not have adequately monitored or reacted
prudently or timely to indicators that Huron was at risk.

A. Why Huron River Area Credit Union Failed
We determined that credit risk12 and strategic risk13 were major factors in Huron‟s
failure. Huron management‟s actions contributed to the failure of the credit union
by committing the majority of its assets to an inherently risky construction lending
program without adequate controls in place.

                              A contributing factor in Huron‟s failure was
     Huron Management
                              management‟s inability to adequately manage and
     Actions Contributed
                              monitor the credit risk within its loan program. In
     to Huron’s Failure
                              addition, management made strategic decisions that
                              put Huron‟s continued financial viability at significant
risk. Specifically, Michigan SSA and NCUA examiners determined, and the OIG
agrees, that Huron management:

         Did not exercise due diligence by evaluating the third party relationship
         held with its lender, the Construction Loan Company (CLC14);
         Allowed CLC to concentrate a majority of the credit union‟s loan portfolio
         in a speculative Florida real estate construction project;
         Allowed CLC to make construction loans to applicants outside the credit
         union‟s approved field of membership;
         Misclassified construction loans and violated NCUA‟s Member Business
         Loan (MBL) limits;
         Did not have adequate liquidity controls in its ALM Policy; and
         Failed to develop or follow adequate plans to guide the direction of the
         credit union and the Florida construction loan program.




12
   Credit Risk is the current and prospective risk to earnings or capital arising from an obligor‟s failure to
meet terms of any contract with the credit union or otherwise fail to perform as agreed. Credit risk exists in
all activities where the credit union invests or loans funds with the expectation of repayment.
13
   Strategic Risk is the current and prospective risk to earnings or capital arising from adverse business
decisions, improper implementation of decisions, or lack of responsiveness to industry changes.
14
   CLC is a privately held, full service for mortgage lender located in Michigan. CLC finances all types of
mortgages, construction loans, home improvement loans, vacant land loans and bridge loans. CLC can
finance both the interim construction loan and the permanent mortgage. (See Confidential Section and
http://www.loantobuild.com/construction-loan-faq.asp)

                                                       7
In addition, we determined other management actions contributed to Huron‟s
failure including:

         Huron management was not forthcoming with the Michigan SSA and
         NCUA examiners about the Florida construction loan program.
         Huron management may have ignored warnings regarding the expected
         decline of housing values, in particular those in the Florida real estate
         market.

Huron was a financially sound credit union for at least nine years prior to NCUA‟s
determination, in June 2007, that it was insolvent. The Michigan SSA rated
Huron a CAMEL 1 from September 30 1998, through June 30, 2003, and rated
the credit union a CAMEL 2 as of March 31, 2005. Huron management‟s actions
surrounding its risky construction loan program fueled rapid and uncontrolled
growth in total real estate loans of 206 percent between March 31, 2005 and
September 30, 2006 (an 18 month period).15 Examiners downgraded Huron to a
CAMEL 5 during the final examination completed in April 200716.

Ultimately, NCUA concluded that as a result of Huron‟s participation in the
Florida construction loan program, Huron was insolvent.17 NCUA determined
Huron‟s Allowance for Loan and Lease Loss (ALLL) account18 was underfunded
by $71 million as of June 30, 2007. In addition, NCUA determined that as of
June 30, 2007, Huron‟s net worth was negative $29.5 million, its net worth ratio
was negative 10.99 percent, and its Probable Asset/Share ratio19 was 87.35
percent, declining from 118.78 percent as of March 31, 2005. Appendix A
provides a history of the SSA examinations of Huron and the assigned CAMEL
ratings from August 31, 1999 through January 2007, NCUAs reviews of the SSA
examinations, and Huron management‟s responses to the examinations.

The following sections summarize Huron management‟s actions contributing to
the Huron‟s failure:




15
   NCUA determined Huron began funding the Florida construction loans on or about June 1, 2005.
16
   Examiners used Call Report data effective September 30, 2006.
17
   A credit union is determined to be insolvent when the total amount of its shares exceeds the present cash
value of its assets after providing for liabilities unless: (a) it is determined by the NCUA Board that the facts
that caused the deficient share-asset ratio no longer exist; (b) the likelihood of further depreciation of the
share-asset ratio is not probable; (c) the return of the share-asset ratio to its normal limits within a
reasonable time for the credit union concerned is probable; and (d) the probability of a further potential loss
to the insurance fund is negligible.
18
   ALLL is a credit union‟s best estimate of the probable amount of loans it will be unable to collect based on
current information and events.
19
   The Probable Asset/Share ratio is a solvency ratio that indicates the relative worth of each one dollar in
shares of an ongoing credit union.

                                                        8
Huron management failed to perform due diligence over CLC and the
construction loan program

Huron management established a third party relationship with CLC in 1997.
During the September 30, 2000 examination20, Michigan SSA examiners
determined Huron management allowed the vendor much of the responsibility for
making and overseeing Huron‟s construction loans; they determined CLC did
most of the underwriting for the construction loans. In addition, according to
Michigan SSA and NCUA examiners, the Huron Board of Directors delegated
authority to CLC to originate, underwrite, approve, and perform all servicing and
collection functions for the Florida construction and lending program. NCUA
examiners determined Huron management performed minimal up front due
diligence of CLC while providing virtually no over-sight of the program.

Dating back to 1999, Michigan SSA examiners identified various deficiencies
regarding Huron‟s mortgage and construction loan program resulting from
management‟s lack of due diligence and oversight. During the January 2007
joint examination,21 examiners identified significant deficiencies with the Florida
loan program which were similar to deficiencies the SSA examiners had
identified in prior examinations. The deficiencies included lack of [management]
oversight, poor loan quality/inadequate loan documentation, concentration risk,
and misclassified loans. Examiners identified specific problems with loans for
both Michigan22 and Florida properties. Table 1 below provides an overview of
these January 2007 deficiencies as well as when examiners identified similar
deficiencies in prior exams. Appendix B provides details of examiner findings
and recommendations as they relate to the specific deficiencies noted above.




20
   This period was almost five years before Huron began funding construction loans in Florida on or about
June 1, 2005.
21
   The January 2007 examination used September 30, 2006 Call Report data. Within days of NCUA arriving
on site, the decision was made to place Huron under Region I Special Actions. The examination ended with
the Michigan OFIR‟s conservatorship of Huron.
22
   NCUA examiners identified existing issues with loans related to properties in Michigan dating back to May
1999, six years before the Florida loan program.

                                                     9
                                                 Table 1: Huron’s January 2007 Deficiencies
Effective Exam
                                         Lack of Mgt        Inadequate
Date                    CAMEL/                                           Concentration   Misclassified
                                         Oversight of          Loan
(Dates Exam             Examiner                                            of Risk         loans
                                            CLC            Documentation
Conducted)
Aug 31, 1999
                        CAMEL 1
(Completed
                        (Examiner
9/21/99)
                           A)
Sep 30, 2000
                        CAMEL 1
(10/25/00 -
                        (Examiner
12/01/00)
                           A)
Sep 30, 2001
                        CAMEL 1
(11/14/01 -
                        (Examiner
12/03/01)
                           A)
Sep 30, 2002
                        CAMEL 1
(11/18/02 -
                        (Examiner
11/27/02)
                           B)
Jun 30, 2003
                        CAMEL 1
(10/27/03 -
                        (Examiner
11/24/03)
                           C)
Mar 31, 200523
                        CAMEL 2
(6/13/05 -
                        (Examiner
6/17/05)
                           C)
Jan 2007 24
(Joint
examination
                        CAMEL 5
Completed
4/04/07)




       23
            CAMEL downgraded due to high delinquency and high long term assets.
       24
            Examiners used data from the September 30, 2006 Call Report.

                                                          10
Huron management concentrated an excessive amount of the credit
union’s assets in the construction loan program in the Florida real estate
market.

As of December 31, 2006, Huron had assets totaling approximately $363 million.
NCUA determined that as of February 8, 2007, Huron‟s Florida construction loan
portfolio totaled $202 million, well over half its total assets and 67 percent of its
total $302 million loan portfolio. Furthermore, NCUA determined Huron
management had committed the credit union to approximately $65 million in
future loans in the Florida construction loan program.


Huron funded loans to applicants outside its approved field of membership
(FOM)

Florida construction loan applicants were not legal members of Huron.25 NCUA
and the Michigan SSA indicated two steps were required to admit an employer or
other organized group into Huron‟s FOM. The first step required Huron‟s Credit
Union Service Organization (CUSO), Learn and Earn Credit, LLC, to submit a
written request for services to Huron. Learn and Earn Credit, LLC met this
requirement. The second step required Huron to request, from the SSA, a bylaw
amendment to add Learn and Earn Credit, LLC, as an “other organized group”.
Huron did not request the amendment; therefore, the Michigan SSA determined
Learn and Earn, LLC, was not a legal member of Huron. Consequently, the
applicants26 for Florida loans who were members of Learn and Earn, LLC, were
not eligible for membership with Huron. We believe this relatively unrestricted
FOM contributed significantly to the rapid and uncontrolled loan growth.


Huron management misclassified construction loans and violated NCUA’s
MBL limits

Huron management violated NCUA‟s MBL rules, failing to limit its aggregate net
MBL balance to the lesser of 1.75 times its net worth or 12.25 percent of its total
assets. Based on Huron‟s December 2006 net worth and total assets of
approximately $41 million and $363 million, respectively, Huron‟s MBL balance
should not have exceeded approximately $44 million. As of February 2007,
NCUA determined Huron had approximately $187 million worth of MBLs in its
Florida construction loan portfolio, an amount over four times the statutory limit.
However, Huron management only reported $8.6 million of its total real estate
loans as MBLs in the December 2006 Call Report. As a result, NCUA and
Michigan SSA examiners did not have accurate information to recognize and
properly supervise and correct Huron management‟s MBL activities. We found

25
  Huron funded the Florida loans to borrowers throughout the United States, including Puerto Rico.
26
  The applicants purportedly “joined” the credit union, under the aegis of Learn and Earn, LLC, as a credit
union member, through the purchase of one fully paid share.

                                                     11
no evidence that Huron management purposely misclassified the construction
loans. However, it was management‟s responsibility to properly classify its loans.


Huron management did not have adequate liquidity controls in its ALM
policy

During the January 2007 joint examination27, Michigan SSA and NCUA
examiners performed a review of Huron‟s ALM practices as well as its risk
positions. The review determined Huron‟s risk management processes were not
adequate for identifying, measuring, monitoring, controlling and reporting its
current and short-term liquidity risks. Specifically, the review revealed:

           The ALM policy did not:
               o Include liquidity risk measuring and monitoring functions. Huron
                   management did not assign key responsibilities for measuring,
                   monitoring and reporting liquidity risks.
               o Include formal procedures for reviewing short-term and long-term
                   cash flows.
               o Require management to estimate current and future liquidity needs.
               o Include formal reporting requirements to provide information
                   regarding short-term and long-term liquidity positions to the Huron
                   Asset Liability Committee (ALCO) or Board of Directors.
           The liquidity risk measurement policy target did not indicate potential cash
           shortfalls and liquidity pressures.
           Huron management did not use the ALM model regarding liquidity gap
           reports that considered changing interest rate environments and stressed
           liquidity positions.

Overall, examiners rated Huron‟s liquidity risk as “high” due to the lack of
adequate ALM policies, procedures, and measurement abilities necessary to
protect the credit union.


Huron management failed to develop or follow adequate plans to guide the
direction of the credit union and the Florida loan program

NCUA and Michigan SSA examiners determined Huron management‟s goal, as
stated in its 2006 Operational Objectives, was to grow the Florida construction
loan program to a maximum of $100 million by the end of 2006. However, the
construction loan balance was $191 million at year-end, which could have
significantly impacted Huron‟s funding requirements. In addition, Huron‟s 2006
annual budget planned for 12 percent asset and loan growth--all in the indirect
construction loan program. However, actual growth was 156 percent between
year-end 2005 and year-end 2006. Furthermore, Huron management indicated
27
     This examination was completed on April 4, 2007.

                                                        12
in its budget narrative that it would shift the main funding of the program from its
external lines of credit (LOC) to Huron‟s members. Although budget projections
showed reduced borrowings of $6 million, Huron management‟s reliance on
external borrowings and non-member deposits actually grew.


Huron management was not forthcoming with the Michigan SSA and NCUA
examiners about the Florida construction loan program

Based on the timing of Huron management‟s actions, we believe Huron
management withheld from the Michigan SSA and NCUA specific information
regarding its Florida construction loan program.

On January 31, 2003 Huron management ratified an agreement with CLC to fund
$30 million (plus) in Florida construction loans. Huron management had
numerous opportunities to inform the Michigan SSA and NCUA of this funding
agreement and the extent of the construction loan program. However, Michigan
SSA and NCUA examiners did not learn of this program until the March 2005
examination.28 Furthermore, the Michigan SSA and NCUA did not learn, until the
January 2007 joint examination, that the program involved investment properties
in Florida.

The following presents a chronology of events subsequent to Huron entering into
the funding agreement with CLC in January 2003 (See Appendix C for a graphic
depiction of the chronology):

           June 2003 – Michigan SSA examination. The examination addressed
           CLC and construction loans; however, the examination made no mention
           of the funding agreement.

           February 3, 2004 – Huron management and CLC prepared (but did not
           ratify) a second agreement to service Huron‟s real estate loan portfolio,
           including construction loans.

           September 16, 2004 - NCUA completed an Interest Rate Risk (IRR)
           review.29 The review noted a moderately high volume of real estate loans,
           but also noted Huron management did not intend to increase real estate
           loans. There was no mention in the review of the funding agreement.

           September 17, 2004 – Huron management ratified the February 2004
           servicing agreement with CLC one day after NCUA completed its IRR
           review. The agreement referenced a potential loan portfolio volume of
           over $50 million.


28
     This examination was conducted from June 13 thru June 17, 2005.
29
     A large increase in Huron‟s long-term investments prompted this review.

                                                      13
         June 1, 2005 (on or about) – Huron began funding Florida construction
         loans.

         June 13, 2005 – the Michigan SSA initiated the March 2005 examination.
         In its reply to this examination, Huron management noted (a) “an expected
         downturn in Michigan‟s economic environment;” (b) its construction loan
         program; and (c) the $30 million line of credit. Once again, however,
         Huron management failed to mention that its construction loan program
         involved investment properties in Florida.

         April 2006 – an NCUA examiner asked Huron management about the
         rapid growth of Huron construction loans. In response, Huron
         management emailed the examiner a detailed overview of the construction
         loan program, but never revealed the construction loans were for
         investment properties in Florida.


Huron management may have ignored warnings regarding the expected
decline of housing values

Huron began offering construction loans in Florida on or about June 1, 2005. On
August 31, 2005, the Credit Union Times30 published an article31 regarding
overvalued home prices. The article indicated 53 cities were “at high risk of price
declines,” including Cape Coral, FL where the author indicated home prices may
have been overvalued by 35 percent. In addition, in October 2005, the Vice
President of Huron sent an article32 to the President/CEO of Huron discussing
the “unavoidable…housing bust” followed by a weakening US economy.

These articles indicated that by mid to late 2005, Huron management was aware
of the potential decline in the housing market, and that credit union publications
were already reporting the declining values of the real estate market specifically
in the Florida communities of Cape Coral and Lehigh Acres where Huron was
concentrating its construction loan program. Nevertheless, Huron‟s Florida real
estate loan portfolio grew by more than 763 percent33 between March 31, 2005,
and September 30 2006. This, we believe, indicates that although Huron
management was or should have been on notice of the declining values in the
Florida real estate market, it nonetheless failed to give due deference to the risks
presented.

30
   The Credit Union Times (the Times) website indicates the Times is the leading weekly publication
covering the credit union industry. It also indicates that top credit union executives read the Times for critical
news and developments affecting the industry.
31
   The article was entitled: Economist says Home Prices Have Risen to “Extremely Overvalued” Levels in
53 Cities.
32
   The article was entitled: The Almost Inevitable 99% Unavoidable, Slam-Dunk.
33
   The percentage represents the „hybrid/balloon loans of five years or less’ category on the Call Report. An
NCUA official informed us Huron management presented the Florida loans as hybrid loans on the Call
Report.

                                                       14
In addition to information credit union and other news publications were
reporting, NCUA issued the following Letters to Credit Unions and Risk Alerts to
FISCUs between 1991 and 2005. These Letters and Alerts provided guidance
on due diligence over real estate lending and outsourced lending:

Year    Reference                Title
1991    Letter No. 124           Real Estate Secured by Credit Union Members
1995    Letter No. 174           Risk-Based Loans
1999    Letter No. 99-CU-05      Risk-Based Lending
2001    Letter No. 01-CU-20      Due Diligence Over Third Party Service Providers
2003    Letter No. 03-CU-11      Non-Maturity Shares and Balance Sheet Risk
        Letter No. 03-CU-15      Real Estate Concentrations and Interest Rate
                                 Risk Management for Credit Unions with Large
                                 Positions in Fixed-Rate Mortgage Portfolios
        Letter No. 03-CU-17      Independent Appraisal Evaluation Functions for
                                 Real-Estate Transactions
2004    Letter No. 04-CU-13      Specialized Lending Activities
2005    Risk Alert No. 05-       Specialized Lending Activities – Third Party
        Risk-01                  Subprime Indirect Lending and Participations
        Letter No. 05-CU-07      Managing Risks Associated with Home Equity
                                 Lending

Furthermore, NCUA issued a series of Letters to Credit Unions between 1999
and 2008, providing guidance on balance sheet risk management or asset-
liability management:

Year    Reference               Title
1999    Letter No. 99-CU-12     Real Estate and Balance Sheet Risk Management
2000    Letter No. 00-CU-10     Asset Liability Management Examination
                                Procedures
2000    Letter No. 00-CU-13     Liquidity and Balance Sheet Risk Management
2001    Letter No. 01-CU-08     Liability Management – Highly Rate-Sensitive &
                                Volatile Funding Sources
2008    Letter No. 08-CU-20     Supervisory Letter – Evaluating Current Risks to
                                Credit Unions

We believe NCUA provided credit unions with sufficient guidance on (1) due
diligence over third parties providing lending activities; and (2) balance sheet risk
management, asset liability management, and liquidity management. Therefore,
we do not have any recommendations to NCUA regarding this issue.




                                         15
B. Michigan State Supervisory Authority and NCUA Supervision
  of Huron River Area Credit Union
We determined Michigan SSA and NCUA examiners may not have adequately
monitored or reacted prudently or timely to trends that indicated the safe and
sound operation of the credit union may have been in jeopardy. As a result,
NCUA did not adequately and timely address the credit and strategic risks Huron
management caused by entering Huron into an inherently risky and uncontrolled
construction lending program, which ultimately led to Huron‟s worsening liquidity
issues.

Supervision procedures include both off-site and on-site work that includes
reviewing off-site monitoring tools and risk evaluation reports. The primary
means by which NCUA monitors the financial condition and the progress of
FISCUs is through the NCUA examiner's review of SSA examination reports, Call
Reports, and FPRs. In addition, NCUA‟s supervision process encourages
examiners to review Call Reports between examinations to identify possible
changes in a credit union‟s risk profile.


     Financial Trends                  Liquidity risk is one of seven risk areas NCUA
     Foreshadowed                      reviews. It is the risk that a credit union will be
     Huron’s Failure                   unable to continue meeting member demands for
                                       share withdrawals or new loans. We observed the
                                       following concerns during our review regarding
Huron‟s liquidity risk:

           Although the Michigan SSA and NCUA examiners expressed concerns
           regarding Huron‟s liquidity, we believe they may not have adequately
           monitored or responded appropriately or timely to their concerns regarding
           this risk.
           We believe financial ratios and trends revealed Huron‟s worsening liquidity
           position well before NCUA and the Michigan SSA officially identified the
           severity of the issue during the January 2007 joint examination.
           Huron‟s liquidity position deteriorated rapidly after March 2005.


Examiners’ Liquidity Risk Concerns

Michigan SSA examiners conducted an examination of Huron as of
March 30, 2005,34 and indicated in the report that:

            Liquidity was diminishing as Huron used funds for construction loans.


34
     This examination was conducted from June 13 thru June 17, 2005.

                                                    16
             o Loan growth was 23 percent in 2004 and 20 percent during the first
               quarter of 2005.
             o Real estate loans, including construction loans, continued to
               increase and represented approximately 84 percent of total loan
               growth.
         The ALM area and liquidity risk exposure required continuous monitoring
         to ensure performance remained acceptable.

In its response to the March 2005 exam report, Huron management stated it had
identified a need to bring funds into the credit union to address liquidity.35
Management said they expected to borrow to initially fund daily liquidity needs
until its construction lending became fully functioning.

In addition, NCUA noted in its review of the SSA‟s March 2005 examination
that:36

        Management had allocated $30 million for a construction loan program
        with CLC underwriting the loans.
        The activity in construction lending was a fairly new program that could
        have exposed the credit union to considerable risk if sufficient internal
        controls were not in place.
        Strong loan growth was consuming liquidity at a rapid pace.
        Loan growth trends indicated liquidity would tighten.
        Refinements were needed in the ALM program in terms of policies and the
        structure of Asset/Liability Committee (ALCO) meetings.

We learned the Michigan SSA monitors credit unions for liquidity-related issues
through its “red flag” reports. The “red-flag” reports help identify potential issues
regarding mortgage-related loan growth. One red-flag report addresses “off-
balance sheet” funding (i.e., borrowing money to lend) and another report
addresses loan growth. The Michigan SSA told us Huron was on the “red-flag”
report for off-balance sheet funding in December 2005. However, in June 2006,
Huron did not meet the “red-flag” criteria regarding loan growth (total loans to
total assets).

We also learned an NCUA examiner “investigated a noted change in the balance
sheet when Huron‟s real estate loan volume first started to increase” in
December 2005.37 In April 2006, based on a review of March 2006 Call Report
data, the NCUA examiner raised concerns with Huron management regarding
Huron‟s rapid construction loan growth. In our discussions with this examiner, he
informed us that he immediately provided this information to the NCUA
supervisory examiner, who in turn discussed the issue with the Michigan SSA.

35
   Huron management‟s response is dated September 19, 2005.
36
   NCUA officials indicated they received the SSA examination on August 30, 2005 and completed its review
on October 4, 2005.
37
   This was the same NCUA examiner who performed the review of the March 2005 state examination.

                                                   17
Michigan SSA officials told us that due to the holidays and scheduling conflicts,
the SSA and NCUA were unable to arrange a joint examination until
January 2007.38 Furthermore, we learned an NCUA analyst observed liquidity
and loan issues on an October 2006 risk analysis report. This report was based
on June 2006 Call Report data.

During the January 2007 joint examination, NCUA and Michigan SSA examiners
pointed out that Huron‟s worsening liquidity position, due to high loan growth and
low share growth, had been a trend since 2005. We believe that collectively
reviewing financial trends and trends in certain ratios, especially considering
Huron‟s liquidity concerns identified in June 2005,39 should have alerted the
Michigan SSA and NCUA of Huron‟s severe liquidity situation prior to the
January 2007 examination.


Financial Ratios and Trends

Numerous ratios measuring a variety of credit union functions provide the basis
for analysis of trends and reasonableness. NCUA guidelines indicate examiners
must understand these ratios both individually and as a group because some
individual ratios may not provide an accurate picture without a review of the
related trends. Financial indicators such as adverse trends, unusual growth
patterns, or concentration activities can serve as triggers of changing risk and
possible causes for future problems.

We reviewed the following ratios and indicators in the quarterly Call Reports and
FPRs40 for trends covering the period March 31, 2005, through
September 30, 200641:

        Real Estate Loan Growth
        Total Loans to Total Shares
        Total Loans to Total Assets
        Net Worth Growth versus Share Growth
        Asset Growth versus Net Worth Growth
        Investment Growth versus Loan Growth and Share Growth
        Borrowings versus Loan Growth and Share Growth

Following are discussions and charts pertaining to each of the above ratios,
indicators, and trends:

38
   The NCUA examiner told us he did not believe he had enough evidence other than loan growth to justify
and insist that NCUA conduct an on-site contact sooner. However, in hindsight, he said he wished he would
have stressed the urgency more.
39
   During the March 31, 2005 examination.
40
   NCUA officials informed us that it could be more than 45 days before Call Report and FPR data is
available to examiners for analysis.
41
   September 30, 2006, is the effective date of the Call Report data examiners used in the January 2007
joint examination that led to the conservatorship of Huron.

                                                   18
Real Estate Loan Growth

Rapid growth in loans can indicate increased volatility in the balance sheet. Loan
growth also reflects a credit union‟s risk management practices. During the
January 2007 joint examination, NCUA and the Michigan SSA described Huron‟s
2005 and 2006 Florida loan growth as “exorbitant”. While NCUA‟s June 2004
IRR review indicated Huron management did not intend to increase real estate
lending, Huron‟s total real estate loan growth was 206 percent between
March 31, 2005, and September 30, 2006. This included a 763 percent growth in
Balloon/Hybrid real estate loans42 over the same period. Charts 1 and 2 below
highlight the rapid growth of Huron‟s total real estate and balloon/hybrid real
estate loan values ($) and volumes from March 2005 through September 2006:


                                                Huron
                                       Real Estate Loan Growth
                                             ($ Millions)


         $300.00
                                                                                        Balloon/Hybrid
         $250.00                                                                        Loans (Less
         $200.00                                                                        than or equal
                                                                                        to five years)
          $150.00
          $100.00                                                                       Total RE Loans

           $50.00
             $0.00




                                                                                   Huron began
                                                                                   funding Florida
                                                                                   construction loans.


               Chart 1 - Total Real Estate and Balloon/Hybrid Real Estate Loan Values ($)




42
   Hybrid/Balloon loans consist of loans that are fixed for an initial period and then convert to a variable rate
using the fully indexed rate, which can result in a significant payment shock to borrowers. This particular
group of loans for Huron re-priced in five years or less. A Region I manager told us Huron management was
classifying the Florida construction loans as Hybrid loans.

                                                      19
Growth in total real estate and balloon/hybrid loan volumes over the same period
was 138 percent and 979 percent, respectively (as shown below):

                                               Huron
                                      Real Estate Loan Growth
                                              (Volume)


  2500
                                                         2,110        2,198      Balloon/Hybrid Loans
  2000                                          1,910
                                                                                 (Less than or equal to
                              1,304   1,459
  1500        924       999                                                      five years)
  1000                                                                           Total RE Loans
    500
      0




                                                                                  Huron began
                                                                                  funding Florida
                                                                                  construction loans.


              Chart 2 – Total Real Estate and Balloon Hybrid/Real Estate Loan Volumes

In addition to its increasing loan balance, Huron had a significantly increasing
balance of other unfunded commitments as illustrated in Chart 3 below. Huron‟s
other unfunded commitments increased over 1,400 percent between
March 31, 2005 and September 30, 2006:

                                                Huron
                                    Other Unfunded Commitments
                                             ($ millions)


   $150

   $100                                                                $103.00
                                                             $86.89                 $96.04
                                               $62.65
     $50
                                    $31.31
                $6.35    $11.97
         $0
              Mar 05    Jun 05     Sep 05     Dec 05
                                                         Mar 06
                                                                       Jun 06
                                                                                   Sep 06
                                                                                 Huron began funding
                                                                                 Florida construction loans.

                                  Chart 3 – Other Unfunded Commitments

                                                        20
Total Loans to Total Shares

NCUA guidelines indicate that a high loan to share ratio is a key indicator of
tightening liquidity. NCUA guidelines also indicate when loan demand exceeds
normal share growth, management must rely on access to borrowed money or
the sale of securities to raise needed cash. During the January 2007 joint
examination, NCUA and the Michigan SSA determined Huron was experiencing
significant liquidity pressures from the uncontrolled loan versus share growth.
Chart 4 below highlights a rapidly worsening trend for this ratio between March
2005 (64 percent) and September 2005 (87 percent). This ratio swelled to a
critical point over the next quarter when it exceeded 106 percent as of December
2005.


                                   Huron
                            Loan-to-Share Growth
                                (Annualized)

       1.4

       1.2

         1

       0.8                                                                  HRACU
                                                                            Peer
       0.6

       0.4

       0.2

         0

                                                                   Huron began
                                                                    funding FL
                                                                 construction loans

                         Chart 4 – Total Loans to Total Shares




                                         21
Total Loans to Total Assets

A high loan to asset ratio may indicate that a credit union cannot meet its
member loan demands and other liquidity needs. This is especially true if (1) the
credit union has limited other funding sources; (2) existing funding depends on
volatile sources; or (3) the credit union has minimal short-term investments.
Chart 5 below highlights Huron‟s trend of increasing total loans to total assets
from 53 percent in March 2005 to 85 percent in September 2006.


                                     Huron
                           Total Loans to Total Assets
                                  (Annualized)
   100.00%

    80.00%

    60.00%

     40.00%                                                                 HRACU
     20.00%                                                                 Peer
      0.00%




                                                                 Huron began funding
                                                                 FL construction loans


                         Chart 5 – Total Loans to Total Assets




                                         22
Net Worth43 Growth versus Share Growth

Although Huron remained well capitalized,44 NCUA guidance indicates examiners
should remain aware of a level of net worth that does not keep pace with share
growth. NCUA guidelines state this scenario undermines a credit union‟s ability
to absorb losses and react to changes. Chart 6 below illustrates that Huron‟s
share growth45 spiked significantly above its net worth growth between
December 2005 and March 2006.


                                               Huron
                                     Net Worth vs Share Growth
                                           (Annualized)

                                                      49.32%
     50.00%
     40.00%
                                                               33.61%
     30.00%
                                                                                          Net Worth
                    4.20%




                                                                        22.51%
                                     0.92%




                                                                                          Growth
                             0.40%




     20.00%
                                              2.01%




     10.00%                                                                               Share Growth
      0.00%11.38%
                  11.38%
                            12.21%
                                      13.15% 13.96%
                                                    14.93%
                                                                        15.85%




                                                                                 Huron began funding
                                                                                 FL construction loans

                              Chart 6 – Net Worth Growth vs. Share Growth



NCUA and the Michigan SSA indicated during the January 2007 joint
examination that Huron management had, in an effort to stimulate share growth,
aggressively marketed all types of deposits in 2006 to help increase funding
sources. For instance, Huron management offered share certificate specials
throughout 2006 earning six percent for four months. As a result, Huron‟s
balance of total “Share Certificates” increased 56 percent from $27 million to $42
million between December 2005 and March 2006. Total share certificates grew
to $63 million by September 30, 2006, a 133 percent increase from December
2005.


43
   Net worth cushions fluctuations in earnings, supports growth, and provides protection against insolvency.
The rate of net worth growth should be commensurate with the levels of risk and asset growth.
44
   A credit union is considered well-capitalized when its net worth ratio is greater than seven percent.
45
   Rapid growth in shares can indicate increased volatility in the balance sheet. Share growth also reflects a
credit union‟s risk management practices. Share growth that outpaces the ability to generate sufficient net
income reduces the overall strength of the credit union‟s net worth.

                                                         23
Asset Growth versus Net Worth Growth

One way for a credit union to achieve rapid asset growth is to compromise its
credit standards, which could result in an increase in illiquid assets46 as well as
cause a credit union to become undercapitalized. During the June 2003 state
examination, a Michigan SSA examiner indicated that Huron‟s “exceptionally
high” annualized asset growth of 21.47 percent exceeded net worth growth. 47
The examiner noted that this area should be continuously monitored to ensure
asset growth is contained within an acceptable level and net worth is not further
compromised. Chart 7 below illustrates that in September 2005, annualized
asset growth (16 percent) began to exceed net worth growth (12 percent), and,
by September 2006, asset growth significantly exceeded net worth growth (51
percent versus 16 percent).

                                            Huron
                               Asset Growth vs Net Worth Growth
                                         (Annualized)

     60.00%


     40.00%

                                                                                     Net Worth
     20.00%                                                                          Growth

                                                                                     Asset Growth
      0.00%     11.38% 11.38% 12.21%
                                     13.15% 13.96%
                                                   14.93%            15.85%




                                                                            Huron began funding
                                                                              FL construction
                                                                                   loans

                            Chart 7 – Asset Growth vs. Net Worth Growth




46
  Illiquid assets cannot be quickly and easily converted into money.
47
  The examiner surmised that the annualized asset growth would decline to a lower level by year-end. The
annualized asset growth did decline to 9.68 percent by the end of the year.

                                                  24
Investment Growth versus Loan Growth and Share Growth

NCUA guidance indicates when loan demand exceeds normal share growth,
management must rely on the sale of securities48 or access to borrowed money
to raise needed cash. NCUA guidelines further state that declining investments
are a key indicator of tightening liquidity. Chart 8 below illustrates Huron‟s
declining investment position, most likely to fund Huron‟s significant growth of
loans and unfunded commitments that outpaced share growth.


                                                    Huron
                                            Growth of Investments
                                      (and Other Unfunded Comittments)
                                                   versus                                     Investments
                                           Loan and Share Growth

       200.00%                                                                                Total Loans

       150.00%                                                                                Shares

       100.00%
                                                                                              Unfunded
                                                                                              Commitments
        50.00%

         0.00%

       -50.00%
                                                                                        Huron began funding
                                                                                          FL construction
      -100.00%                                                                                 loans
                   Chart 8 – Growth of Investments (and Other Unfunded Commitments)
                                        vs. Loan and Share Growth




48
     Investments that can be readily sold are one of the main sources for credit unions to raise needed cash.

                                                       25
In addition, NCUA guidelines indicate if a credit union sells or transfers its hold to
maturity (HTM49) investments, it may be doing so to meet liquidity needs. Chart
9 below illustrates the decline of Huron‟s HTM investments and the increase of
its available for sale (AFS50) investments. Huron‟s total HTM investment portfolio
declined from $73 million in March 2005 to $0 in September 2006, while its
portfolio of AFS investments increased from $486,000 to $23 million during the
same period. Based on Huron‟s increased loan demand and lagging share
growth, we believe that Huron management may have sold its longer term HTM
investments, or transferred them to shorter term AFS investments, to help meet
the growing loan demand.51

                                                         Huron
                                      Restructuring of Investments and Maturities
                       $33.27




                                                      ($ Millions)
     $35
                  $24.73




     $30                                                                                              HTM <= 1 Year
                                            $22.39




                                                                                                      HTM > 1 - 3 Years
     $25
                                       $18.10




                                                                 $16.64

                                                                                                      HTM > 3 - 5 Years
              $15.30




     $20


                                                                                         $12.92
                                                                                                      AFS <= 1 Year
                                                                                      $9.85
     $15
                                    $9.48




                                                                                                      AFS > 1 - 3 years
                                                                          $5.54




     $10                                                                                              AFS > 5 Years
                                                           $3.07




                                                                                              $1.19
                                                                     $1.09
                                                $1.04
                            $0.99



                                               $0.52
                           $0.49
                           $0.00
                           $0.00




                                               $0.00
                                               $0.00

                                                        $0.00
                                                        $0.00
                                                        $0.00




                                                                                  $0.00
                                                                                  $0.00
                                                                                  $0.00

                                                                                             $0.00

      $5                                                                                              Trading <= 1 Year

       $-
                       Mar 05               Sep 05        Dec 05                    Sep 06

                                Chart 9 – Restructured Investments and Maturities




49
   The HTM classification signifies that management intends to hold the investment until it matures.
50
   The AFS classification signifies that management will sell the investment if they need the funds for other
purposes.
51
   NCUA determined that Huron pledged the AFS investments as of September 30, 2006 to the Federal
Home Loan Bank (FHLB). Therefore, the investments were not available for liquidity purposes.

                                                            26
Borrowings versus Loan Growth and Share Growth

NCUA guidelines indicate that when loan demand exceeds share growth,
management must rely on access to borrowed money or the sale of securities to
raise needed cash. Although borrowing is a source of liquidity, it does not
provide a continuous basis for funding loan demand or share withdrawals.
Considering Huron‟s significant and rapid loan growth, slow growing share
balance, and its unfavorable and declining investment portfolio, we reviewed
Huron‟s lines of credit (LOC) and borrowings to determine whether Huron
management increased its borrowing. Chart 10 below illustrates that Huron
management increased its LOC between September and December 2005 - the
same period its loan balance exceeded its share balance. The chart also
highlights that Huron management significantly increased its borrowings against
its LOC between March and June 2006 as loan growth continued to outpace
share growth.



        Huron began                        Huron
         funding FL
                                      Borrowed Funds
      construction loans
                               versus Loan and Share Growth
                                        ($ Millions)                         Funds
                                                                             Borrowed

                                                                             LOC
      $300                                                                   Avaiable
      $250
                                                                             Loans (and
      $200
                                                                             Leases)
      $150
      $100                                                                   Shares (and
                                                                             Deposits)
       $50
         $0




                    Chart 10 – Funds Borrowed versus Loan and Share Growth

In summary, our analysis of the above ratios leads us to believe continuous
monitoring and analysis of several related financial ratios over a period of time
can identify trends. Monitoring trends can provide a different and clearer
perspective on credit union operations and changing risks than separately
reviewing individual indicators at distinct points in time. In addition, it can
indicate the need for examiners to conduct more qualitative data analysis to
understand a credit union‟s operations.

                                             27
Huron’s Liquidity Position Deteriorated Rapidly

Huron‟s liquidity position deteriorated rapidly before NCUA could arrange an on-
site contact to investigate Huron‟s construction loan growth. In December 2005,
an NCUA examiner identified a trend regarding rapid construction loan growth at
Huron. The examiner followed up by reviewing the March 2006 Call Report and
contacted Huron management in April 2006 about the rapid loan growth. The
examiner informed us that he provided this information to the supervisory
examiner. The examiner also told us the supervisory examiner discussed the
issue with the Michigan SSA. Michigan SSA officials told us that in November
2006, they and NCUA attempted to schedule a joint examination for December
2006. However, Michigan SSA officials stated they were not able to schedule a
joint examination until January 2007 due to the holidays and scheduling conflicts.
During the nine-month period, from April 2006 through December 2006, real
estate loans continued to grow rapidly and significantly worsened. Total real
estate and balloon/hybrid loan52 values grew 49 percent and 73 percent
respectively, and loan to share growth increased from 107 percent to 126
percent53 between March 31, 2006 and December 31, 2006.

NCUA guidelines indicate each regional office and the respective SSA create
their own working relationships and agreements to accommodate the unique
circumstances of each state. Region I‟s agreement with the Michigan SSA
addresses procedures for conducting joint contacts. In addition, the agreement
provides that the Michigan SSA or the NCUA may execute an enforcement
action54 independently of the other if the agencies cannot reach agreement on
the action. However, the agreement does not address procedures for or
conditions under which NCUA may conduct a contact independent of the
Michigan SSA. An NCUA examiner told us that he did not believe there were
additional concerns, other than the rapid loan growth, to present to his
supervisory examiner. However, he wished he would have stressed the urgency
of the loan growth issue more.

Suggestion: We understand NCUA may face challenges when working with
SSAs to schedule joint examinations. However, NCUA‟s primary responsibility is
to protect the NCUSIF. We believe one key to limiting an institution‟s risk is early
and timely corrective action by NCUA in response to supervisions that identify
potential problems with a credit union‟s condition and potential impacts on the
NCUSIF. Therefore, we suggest that NCUA aggressively investigate and protect
against perceived risks to the insurance fund - including on site contacts when
NCUA deems it is appropriate - even if state officials may not be available.


52
   Balloons/Hybrids of less than five years.
53
   The loan to share ratio reached a high of 139 percent in September 2006.
54
   Enforcement actions typically include Memorandum of Agreement (MOA) or Letters of Understanding
(LUA) both of which may be used to resolve supervisory concerns where appropriate.

                                                 28
Recommendation: We recommend NCUA management issue a Supervisory
Letter to all Federal and State examiners to alert them of the need to (1) analyze
and understand financial ratios and trends individually and as a group and
(2) thoroughly analyze pertinent qualitative data in order to adequately assess
the safety and soundness of credit union operations.

Agency Response: Concur. NCUA recently reinforced the need for aggressive
investigation and protection against perceived risks in Letter to Credit Unions
No.: 08-CU-20 Evaluating Current Risks to Credit Unions, dated August 2008.
This letter includes supervisory guidance given to NCUA examiners about
diligent examination and supervision when potential risk to a credit union is
identified.

OIG Response: The OIG concurs with the agency‟s response.




                                        29
OBSERVATIONS AND LESSONS LEARNED

This section addresses observations and lessons learned regarding:

         Credit Union Operations and Management Actions, and
         New Region I Procedures

     Credit Union           We reviewed industry55 observations regarding the
     Operations and         failures of financial institutions. We also reviewed
     Management Actions     recent NCUA observations regarding credit union
                            failures. We believe the industry‟s and NCUA‟s
observations apply to issues we observed during our review of Huron‟s failure.

The following table lists the industry observations regarding failed financial
institutions and how they compare to our observations about Huron‟s failure:

  Industry Observations - Failed           NCUA OIG Observations of Huron’s Failure
       Financial Institutions
Failed institutions often exhibit          Huron’s net worth ratio was 15.04 percent as of
warning signs when they appear             March 2005 when examiners indicated Huron’s
financially strong.                        liquidity was tightening. It was still adequate--
                                           at 8.15 percent as of December 2006--shortly
                                           before NCUA declared Huron insolvent.
The financial condition of the             NCUA coded Huron a CAMEL 1 between 1998
institution is no guarantee of future      and 2003. NCUA coded Huron a CAMEL 2 as
performance.                               of March 2005. Huron’s CAMEL dropped to a
                                           CAMEL 5 based on September 2006 data.
Managers of failed institutions            Huron management’s decision to enter into the
frequently assume more risk than           Florida loan program resulted in uncontrollable
they are able to handle.                   loan growth and led to Huron’s illiquidity.
An inattentive or passive board of         The Huron Board of Directors delegated
directors is a precursor to problems.      authority to CLC to originate, underwrite,
                                           approve and perform all servicing and
                                           collection functions for the Florida construction
                                           and lending program.
The Institution may reach a point at       NCUA declared Huron insolvent at the
which problems become intractable          conclusion of its January 2007 examination,
and supervisory actions are of             which identified Huron’s severe liquidity
limited value.                             issues.

Industry officials observed other issues regarding failed financial institutions
similar to those we observed during our review of the Huron failure. They
observed:

55
  We reviewed a 2004 report issued by the FDIC OIG - Observations from FDIC OIG Material Loss Reviews
Conducted 1993 through 2004 (Report No. 04-004, January 22, 2004) - that summarized observations from
material loss reviews of 10 failed FDIC-supervised institutions.

                                                30
         The institutions‟ management56 took risks that were not mitigated by
         systems to adequately identify, measure, monitor, and control the risks.
         Economic conditions contributed to, but were not the sole cause of, the
         failure and the resulting material loss.

As reported earlier, we determined the economic decline of the Florida real
estate market contributed to Huron‟s failure. However, management‟s risk taking
and decision to involve the credit union in the Florida construction loan program
without adequate controls in place were among the main causes of Huron‟s
failure.

We also reviewed recent observations by NCUA regarding credit union failures.
NCUA indicated that overly aggressive management activity is a reason credit
unions fail. This observation is consistent with the industry‟s observation of other
failed financial institutions, that management often assumes more risk than it can
handle. The following table compares the overly aggressive management
activities NCUA identified at Huron with our observations in the course of this
review:

      NCUA Observations                                   NCUA OIG Observations
                                                                   at Huron
Liberal lending policies.                   Huron’s loan growth was fueled by (1) Huron
                                            management’s limited or non-existent oversight of
                                            CLC’s loan origination, underwriting, and approval
                                            practices and (2) loans to an illegal field of
                                            membership, which made Huron’s lending virtually
                                            unrestricted.
Excessive loan growth
compared with abilities or                  Huron management had to borrow externally, offer
funding sources.                            attractive share certificate rates, and divest and
Inadequate liquid                           restructure its investments to try to fund the excessive
assets/secondary source of                  loan growth in the Florida construction loan program.
liquidity.
Undue reliance on volatile                  Huron borrowed funds from a Federal Home Loan
liabilities.57                              Bank and a corporate credit union to attempt to fund
                                            its Florida loan program.
Collateral based lending/loan               Huron had a high concentration of loans secured by
concentration.58                            real estate in Florida.



56
   Management includes the Boards of Directors and executive officers.
57
   Volatile liabilities generally include funding from institutions/brokers. These tend to be interest rate
sensitive and are funds that are likely to be withdrawn at a moment‟s notice.
58
   A collateral loan is a loan obtained from a financial institution where, in exchange for the loan, the creditor
may sell the collateral if the loan is unpaid. A collateral loan is often offered at a lower interest rate than an
unsecured loan, because there is a guarantee of repayment should the borrower default on the loan.

                                                       31
Furthermore, the financial industry and NCUA identified four stages of an
institution‟s failure:

       I – Strategy
       II – Growth
       III – Deterioration
       IV - Failing

Appendix D provides a summary of the first three stages leading up to the
“Failing” stage. It lists elements the financial industry and NCUA identified as
components of these stages. It also identifies our assessment of which elements
we believe contributed to Huron‟s failure.

Finally, we believe a significant industry observation is that one of the more
difficult challenges facing regulators is limiting risk assumed by institutions even
though their capital ratios make them appear financially strong. A critical
component in limiting an institution‟s risk is early corrective action by regulators in
response to examinations that identify potential problems and effects on the
institution‟s condition.


                            We learned Region I implemented procedures,
 New Region I
                            subsequent to Huron‟s failure,, as a “second line of
 Procedures
                            defense” to help address supervisory concerns that
                            may go undetected. These procedures use NCUA
                            national risk reports and should help examiners
better monitor FISCUs. Specifics of Region I‟s efforts to improve their
supervision of FISCUs include:

       Supervisory Examiners (SE) are assigned an analyst who works on only
       those credit unions under the purview of their assigned SE.

       Analysts perform a quarterly review of the associated risk reports for the
       credit unions within their assigned SE‟s district. Analysts conduct this
       review to identify any potential issues, trends, or regulatory violations that
       might be supervisory concerns.

       Analysts prepare a detailed spreadsheet if potential issues, trends, or
       violations are identified. The spreadsheet is forwarded to the SE for
       review and comment.

       Following a review of the spreadsheet by the SE, the SE must respond in
       writing to all potential supervisory issues identified by the analyst. The SE
       must explain to the analyst whether the potential issues are supervisory
       concerns.


                                          32
       Analysts are required to continually monitor all spreadsheet activity and
       provide follow-up, as necessary, in order to ensure that all potential
       supervisory issues raised to the SE are acted upon.

Suggestion: In order to provide additional oversight of FISCUs, Region I should
continue their procedure of using analysts to provide a secondary review of
national risk reports to better monitor FISCUs. Furthermore, we suggest NCUA
determine whether all Regional Offices should incorporate these procedures to
provide increased supervision of FISCUs.

Agency Response: We concur in principal. However, if adopted on a national
level, the specific procedures should be left to each regional director to determine
the proper flow of information through their chain of command.

OIG Response: The OIG concurs with the agency‟s response.




                                        33
Appendix A: Examination History

Huron was rated a CAMEL 1 between 1996 and 2003. For the March 2005
examination, the Michigan SSA rated Huron a CAMEL 2. However, during the
January 2007 examination, NCUA and the SSA downgraded Huron to a CAMEL
5 and considered the safe and sound operation of the credit union in jeopardy.
This examination led to the conservatorship of Huron in February 2007. Table 3,
located at the end of this Appendix, provides a summary of Huron‟s CAMEL
ratings and comments as of the effective dates of the examinations from the
August 31, 1999 through September 30, 2006.

Several of the examinations of Huron specifically cited favorable ratios and
positive trends that indicated the financial strength of Huron. Table 2 below
provides a summary of Huron‟s key ratios as of the effective dates of the
examinations from 1999 through 2006.59

                                      Table 2: Key Ratios
              Aug   Sep   Sep   Sep   Jun                                      Mar            Sep
               31    30    30    30    30                                       31             30
              1999  2000  2001  2002  2003                                     2005          200660
             CAMEL CAMEL CAMEL CAMEL CAMEL                                    CAMEL         CAMEL
                1     1     1     1     1                                        2              5
Capital/
             13.04%       13.95%
Assets
Net
Capital/     12.63%       13.54%
Assets
Net
                                       13.58%       13.51%       12.76%        15.04%        11.46%
Worth
Delin-
               .65%         .31%       1.06%61         1.23%      1.17%         1.93%        1.20%
quency
Net
Charge-        .59%         .37%         .39%        .57%62        .65%         .19%          .13%
Offs
ROAA63        1.56%        2.05%        2.09%          1.23%      1.15%         1.69%        1.87%


59
   Except for the joint NCUA/Michigan SSA examination effective September 30, 2006, the referenced
examinations were Michigan SSA examinations.
60
   NCUA and the Michigan SSA determined the safe and sound operation of Huron was in jeopardy.
61
   Delinquency and loss ratios remain low. We noted an increase in the delinquency ratio and we will
continue to monitor it. The cause of the spike in delinquency is two real estate loans. Only one remains
delinquent. The credit union has had a tradition of low delinquency and loan losses. Management is
capable to monitor and control delinquency. We changed the composite rating to 1 because of the low
delinquency history.
62
   Delinquency and net charge offs remain above the industry average, however, collections are strong.
63
   Return On Average Assets.

                                                  34
Following are summaries of the Michigan SSA examinations of Huron since
1999, available Huron management responses to the state examinations, and
available NCUA reviews of the SSA examinations:64

August 31, 1999

                      The Michigan SSA completed an examination of Huron on
     Michigan SSA
                      September 21, 1999 using credit union data effective
     Examination
                      August 31, 1999. While the examiner rated the component
     (Code 11)
                      CAMEL for Asset Quality 2, the overall composite rating
                      was 1. The examiner noted that the maintenance of
favorable ratios was an indication of the strength of Huron. However, the
examiner noted the following areas of concern:

         No Business Loan Policy.
         Incomplete internal control over the construction loan program.
         Loan practices in violation of bylaws.

Business Loans

Huron granted a business loan without a Business Loan Policy in place as
required by Part 723 of the NCUA Rules and Regulations. The examination
directed that before Huron made any more business loans that it must develop a
Business Loan Policy and include a copy of the new policy with the reply to this
Report of Examination.

Construction Loans

Huron granted a “significant number of construction loans”65 between
examinations. The examiner noted his concern over the reliance placed on the
outside vendor for underwriting the construction loans. He indicated relying on a
third party to provide loan information is a risk due to the lack of sufficient
information and documentation to minimize any risk involved. Specifically, the
following were some of the concerns with the program:

         No review of vendor financial statements on a regular basis.
         No determination of the financial stability of the vendor.
         No determination that plans and construction costs were accurate and
         authentic.
         No indication of zoning and building permits on file.
         No indication that member‟s equity was sufficient.
64
   We chose to start with the August 31, 1999 examination because it provides the first mention of a third
party vendor underwriting Huron‟s construction loans.
65
   The examiner did not indicate these were member business loans.

                                                     35
      No documentation that a builder‟s risk policy was in place and sufficient.
      No documentation on file indicating a bond for the builder.
      No checks that the inspections, contractor warranty and waivers were
      authentic and accurate.
      No check that appraisals completed for other financial institutions were
      accurate.
      No review of the underwriting.
      No check to see if the vendor had the proper license.

The examiner directed Huron management to expand the Construction Loan
Policy to address all the concerns listed and improve the controls over this
program. In addition, the examiner required Huron include an updated
Construction Loan Policy in the reply.

Loan Exceptions

The examiner indicated there was no loan documentation for a number of loans
reviewed. The examiner directed Huron to:

      Research the loans to be certain they were authentic.
      Locate missing documentation.
      Review current loan documentation storage procedures to see what could
      be done to prevent files from being misplaced.
      Report the action taken in the reply to the examination.
      Take action to prevent these types of exceptions from recurring in the
      future.

 Huron Management
 Response to the            The Michigan SSA stated it did not have the Huron
 State Examination          response because its records retention policy is to
                            maintain records for only five years.

 NCUA Review of
 Michigan SSA
 Examination
 (Code 26)                  Not Available


September 30, 2000

 Michigan SSA               The Michigan SSA conducted an examination of
 Examination                Huron from October 25 through December 1, 2000
 (Code 11)                  using credit union data effective September 30,
                            2000. The examination rated Huron a CAMEL
composite of 1 because of its high levels of capital and earnings. The

                                       36
examination rated the Asset Quality component a CAMEL 2 because of
documentation problems with construction loans and the level of control over the
construction loan vendor.

Construction Loan Vendor Oversight

The examination indicated management allowed the vendor and the title
company much of the responsibility for making and overseeing construction
loans, relying on photocopies and facsimiles from the vendor. The examination
cited the lack of satisfactory internal control and oversight by management as a
safety and soundness concern. The examiner directed management to review
its procedures and improve oversight to ensure the authenticity of the loans and
to detail their review in the credit union‟s response to the Report of Examination.

During the exit conference, the examiners noted that during the past
examination, management did not fully agree with the amount of oversight
necessary to control the construction loans. However, the examiners indicated
they believed they convinced management this time that they had to rethink their
controls over the construction loan vendor and be more cautious.

Incomplete Loan Files

The examination identified loan exceptions66 that indicated the Huron loan files
were incomplete. The examiner directed Huron management to detail its actions
taken in its response to the examination. The examiner also advised Huron
management to review the loan exceptions, make corrections where possible
and to take action to prevent these types of exceptions from recurring in the
future.


     Huron Management                Huron management indicated it was meeting with
     Response to the                 the vendor to review all of the components of the
     State Examination               documentation process in order to improve its
                                     overall procedures and to increase the awareness of
                                     the vendor to examination needs.

Management also indicated it had begun a program of unannounced audits of
construction loan files at the vendor‟s location in its efforts to provide oversight of
the authenticity of the loan origination process.




66
  The examination file did not include the list of loan exceptions. The examination included a note to not
include the loan exceptions in the Report of Examination, and that the examiners completed loan exceptions
outside of AIRES because of unresolved problems in transferring loans from one examiner to another.

                                                   37
     NCUA Review of
     Michigan SSA
     Examination
     (Code 26)
                                      Not Available


September 30, 2001

     Michigan SSA The Michigan SSA conducted an examination of Huron
     Examination  from November 14 through December 3, 2001 using credit
     (Code 11)    union data effective September 30, 2001.67 The
                  examination rated the Huron a CAMEL composite 1 and
                  raised the Asset Quality component to a 1 from the prior
examination. However, the examination noted concerns with:

         Concentration of risk with the Construction Loan Company (CLC).
         Misclassification of loans to CLC and Multiple Services CUSO, Inc68
         (MSCUSO).
         Violation of Credit Union Rule 15a aggregate limits.
         Violation of Business Loan Policy limits for construction loans and
         concentrations.

Concentration of Risk with CLC and Violation of Credit Union Rule 15a aggregate
limits

The examination addressed the large concentration of credit granted to CLC and
the construction loans held and serviced by CLC:

            Loans/Lines of Credit (LOC)69                                                   Value
1           Line of Credit to CLC

            This was a line of credit to CLC directly from Huron.
            CLC used the proceeds of this loan to fund construction
                                                                                            $3,000,000
            loans. The examiners found that nearly $445,000 of the
            $3,000,000 line of credit to CLC was outstanding as of
            September 30, 2001 and was used for a business
            purpose.




67
   The examiner who conducted the previous examination contact conducted this contact.
68
   (see Confidential Section.doc) Multiple Services CUSO was 33% owned by Huron along with Lansing
Community Credit Union and Kalsee Credit Union who are also each 33% owners of MSCUSO.
69
   While the examination indicated the additional lines of credit granted since the last examination increased
the concentration of risk in one company, the examination indicated the continued high levels of capital and
earnings were the main factors that contributed to the CAMEL composite of one.

                                                     38
Huron Management Response

Huron management indicated it would reclassify this LOC as a business loan.
2       Loan to CLC through Multiple Services CUSO, Inc

         This was a loan Huron made to Multiple Services CUSO
                                                                     $1,000,000
         (MSCUSO). Multiple Services CUSO then made the
         loan to CLC.

Huron Management Response

Huron management indicated CLC used this line of credit to fund mortgages for
nonmembers. The mortgages were closed in CLC‟s name and assigned to the
MSCUSO as mortgages. Management indicated the loans should be classified
as real estate loans rather than business loans.
3         Construction loans held by CLC and assigned to Huron
                                                                     $18,025,934
       Loans purchased from CLC and placed in the loan
       portfolio of Huron.
Huron Management Response

Huron management indicated the construction loan mortgages were recorded in
the name of CLC and assigned to Huron. At the completion of the construction
loan, Huron decided whether to fund the end mortgage
Total Loans                                                      $22,025,934

The credit and loans represented a potential concentration
associated with one company. The loans were written in the
name of CLC. CLC executed an assignment of the mortgages to
Huron.

The examination indicated Huron exceeded the 15% limit set in
Credit Union Rule 15a(6)(a) which requires the aggregate limit for
business loans used in financing the construction of residential
property to be no more than 15% of equity. The examination
indicated Huron equity totaled $22,582,672, while loans and
commitments to CLC was $4,000,000, which represented almost
18% of Huron’s equity.


The examination directed Huron management to detail in its response to the
examination the steps taken to mitigate and justify the risk involved with the
concentration.




                                        39
Misclassification of Loans to the Construction Loan Company (CLC) and Multiple
Services CUSO, Inc.

The examination indicated Huron should have classified the two loans to CLC
mentioned above ($1 million and $3 million) as business loans. The examination
directed management to revise the call report for September 30, 2001 to reflect
the correct classification of business loans and to detail the action taken to
correct the classification of business loans in its response to the examination.

Violation of Business Loan Policy limits for construction loans and concentrations

The examination noted the following violations of Huron‟s Business Loan Policy:

       The limitation of business loans to finance construction loans to 15% of
       Huron River Area Credit Union‟s net worth.

       The limitation of business loans to any one member or group to 15% of
       net worth or $100,000, whichever is higher.

       The limitation of business loans to 125% of reserves. Huron‟s reserve
       total was $3,617,803. Its business loans, including commitments, totaled
       $4,928,931. This represented 136% of Huron‟s reserves.

The examination directed Huron management to detail in its reply to the
examination, its actions to reduce business loans to a level below policy limits. In
addition, the examination directed Huron management to revise the call report for
September 30, 2001 to reflect the correct classification of business loans. The
examination also indicated the board of directors was to continue the close
oversight of CLC.

 Huron Management             Huron management indicated it was reviewing its
 Response to the              Business Loan Policy and would forward a copy of
 State Examination            its actions to the SSA. Huron management
                              indicated in its February 18, 2002 response that it
                              would address the call report issue.

 NCUA Review of               NCUA conducted a Code 26 review of the Michigan
 Michigan SSA                 SSA examination report. The NCUA reviewer noted
 Examination                  member business loan and construction loan
 (Code 26)                    problems. While NCUA agreed with the CAMEL
                              composite rating of 1, NCUA noted two differences:

       Asset Quality Component –The state coded this element a 1. However,
       NCUA coded it a 2 based on the moderate charge off levels and the
       following concerns identified in the business loan area:


                                        40
             o Concentration of risk with CLC
             o Misclassification of loans to CLC ($3 million) and the Multiple
               Services CUSO ($1 million). Huron should have classified them as
               business loans.
             o Violation of Credit Union rule 15a – the $4 million in loans and
               commitments exceeded the 15% of equity limit of $3.4 million for
               construction loans.
             o Violation of Huron‟s own Business Loan Policy limits.

             The NCUA reviewer indicated the loans profiled during the examination
             could not be reviewed since no loans were included in the “Lists and
             Queries” tab within AIRES.

         Management Component – Due to the numerous violations of regulations
         and policies and safety and soundness principles in the business lending
         area [and website and home banking product control issues], NCUA rated
         this area a 2, while the state rated it a 1.

The NCUA reviewer indicated the joint SSA agreement provided that if the SSA
identified a credit union that had exceeded the aggregate MBL limit, the SSA
would notify the appropriate NCUA SE. The NCUA reviewer noted that the SSA
did not notify the SE.

The NCUA reviewer also indicated that the overview appropriately addressed the
problem areas and that the SSA indicated that it would monitor Huron through
call reports, FPRs and the annual CPA audit. In addition, the NCUA reviewer
indicated they would review Huron‟s reply to the examination to determine the
actions taken to address the business loan violations and safety and soundness
issues with the CLC concentration. Furthermore, the NCUA reviewer indicated
they provided the SSA examiner with additional questions about the CLC
situation and that supervision would depend on the official‟s reply to the
examination and answers received from the SSA examiner.70


September 30, 2002

     Michigan SSA    The Michigan SSA conducted an examination of Huron
     Examination     from November 18 through November 27, 2002 using
     (Code 11)       credit union data effective September 30, 2002. The
                     examination rated Huron an overall composite of 1. The
                     examination determined the credit union‟s financial
performance remained strong between examinations. Net Worth increased
between examinations and compared favorably to the industry average. Net
income, as a percentage of assets, decreased since year-end 2001, which the

70
   We contacted the NCUA Reviewer during this review. The reviewer indicated she did not recall the issues
from the examination and did not have the email of questions she provided to the state EIC.

                                                   41
examiner indicated could have been attributable to declining gross income due to
a reduction in investment and loan yields. The examination also indicated
management had reduced operating expenses and cost of funds, as a
percentage of assets, to minimize the negative impact of a reduction in gross
income.

Furthermore, the examination indicated the examiner reviewed a sample of
consumer, real estate, insider, and business loans. Overall, loan quality
appeared to be strong and loan files contained evidence of sound credit analysis,
current credit reports, and proof of lien and insurance.

The examination still considered Huron‟s $3 million line of credit to the CLC to
fund the credit union‟s members' construction loans as a business loans. In
addition, the examination indicated Huron also funded members‟ construction
loans directly. The examination included a review of a sample of these loans, but
did not note any concerns or exceptions.


 Huron Management
 Response to the
 State Examination          Not Available



 NCUA Review of
                            The NCUA reviewer assessed the seven risk areas
 Michigan SSA
                            – compliance, credit, interest rate, liquidity,
 Examination
                            reputation, strategic and transaction. The NCUA
 (Code 26)
                            reviewer made the following observations:

      Compliance Risk – Moderate
        o Heavy Reliance on state‟s rating – no reasons given for rating. The
           last examination noted several violations and breach of business
           loan limits.

      Credit Risk – Moderate
         o The state examiner noted the construction loan, business loan and
             LOC situation, but indicated there were no concerns or exceptions.
         o The state examiner‟s response to the NCUA reviewer‟s questions
             from the prior examination indicated that the state examiner‟s:
                 Conclusions about the mortgage assignments were wrong.
                 Statements on the $22 million concentration of credit to CLC
                    and assigned to Huron was also incorrect – if CLC declared
                    bankruptcy, no loss would result because all loans are in the
                    credit union‟s name.
         o No evidence of poor lending.


                                       42
             o State examiner indicated loan quality appears to be strong. Loan
               files contained evidence of sound credit analysis, current credit
               reports and proof of lien and insurance.

         Interest Rate Risk – Moderate
             o Heavy reliance on state examiner‟s judgment.
             o Based on a review of the call report, this area rates “High”.
                However, the SSA reduced the rating to moderate “based on the
                ALM data reports and discussions with the assistant manager.” No
                other ALM comments could be found in the Overview, Confidential
                Section, or other areas of AIRES.
         Liquidity Risk – Low
             o Based on the slight decline in the loan-to-asset ratio, the high
                amount of regular shares and share drafts and loan rollover of 14
                months.

         Reputation Risk – Moderate
           o No material concerns noted.

         Strategic Risk – Moderate
            o Based on the state examiner‟s comments, management had a
                strategic plan and satisfactory goals for the future. The state
                examiner did not elaborate.


June 30, 2003

     Michigan SSA     The Michigan SSA conducted an examination of Huron
     Examination      from October 27 through November 24, 2003 using credit
     (Code 11)        union data effective June 30, 2003. The examination rated
                      the Asset Quality CAMEL component a 2 and rated the
overall CAMEL a 1. The examination indicated Huron was performing well in
most areas - earnings, net worth, and delinquency ratios were at levels that were
satisfactory and met or exceeded average performance. The examination also
indicated the loan charge-offs continued to increase as in the prior year;
however, the percentage of past due loans decreased as loans were charged off.
The examination indicated the ratio had increased each period since the year
2000.71

In addition, the examination indicated that despite declining asset yields and net
margins, the return on assets continued to perform better than average, after
reductions. With lower interest rates, the yield on loans and assets were less

71
   Increases in bankrupt accounts have been a major contributor to the rise in loan losses and delinquency.
In order to control and minimize loan losses, the collection staff was utilizing more aggressive collection
practices. The examination indicated continuous review of this area was needed to reduce loan losses to a
satisfactory level.

                                                    43
than previous years, which was primarily contributed to the declining net interest
income. Performance in the other related earnings ratios had not changed
enough to severely impact net income and the return on assets.

Furthermore, the examination noted that net income and the return on assets
were favorable even though income on loans and investments was reduced
because of the lower interest rates and declining loan demand. Also, operating
expenses declined each period and continued to do so, being less than the
industry averages. Asset growth had been very strong for the year and was
performing well in excess of earlier periods. The growth in assets had well
surpassed any increase in net worth, and the result was a reduced but still
respectable net worth ratio.

The examination included a review of loans for violations of credit union bylaws,
policies, and consumer lending regulations, or containing technical exceptions.
The review did not disclose any critical concerns or issues in the underwriting. .

     Huron Management
     Response to the
     State Examination
                                    Not Available.72


     NCUA Review of
     Michigan SSA
     Examination                    The NCUA reviewer assessed the seven risk areas
     (Code 26)                      as follows:

         Compliance Risk – Low
           o No compliance concerns noted

         Credit Risk – Moderate
            o The examination report stated there were no critical lending
                concerns, but there were numerous Loan Exceptions
            o Huron made business and construction loans, but no major
                problems noted
            o Delinquencies and Charge-Offs were slightly above average
            o The NCUA reviewer recommended an investment review and a
                construction and business lending review.

         Interest Rate Risk – Moderate
             o The SSA report was silent concerning Interest Rate Risk.
             o Large increase in 3- 10 year investments from $11 mil to $41 mil


72
  The Michigan SSA indicated it did not have Huron management‟s response; it would have destroyed the
response in accordance with its records retention policy.

                                                 44
             o December 2003 Call Report indicated continued long term
               investment growth to $63 mil – long term investment volume
               continued to grow rapidly.
             o The NCUA reviewer recommended an Interest Rate Risk review.

         Liquidity Risk – Moderate
            o No liquidity concerns reported – cash and short term investments
                had declined slightly.
            o Liquidity expected to decline further with continued lengthening of
                investments but not to a critical point.

         Liquidity Risk – Huron has maintained strong net worth and return on
         average assets and acceptable levels of risk for several years.

         Reputation Risk – Low
           o No known or reported reputation risks.

         Strategic Risk – Moderate
            o Strategic planning and risk not specifically discussed.


June 2004

 NCUA Interest Rate           NCUA completed an IRR review of Huron on
 Risk (IRR) Review            September 16, 2004 in lieu of a scheduled state
                              examination. While Huron had a moderately high
                              volume of real estate loans (32.7 percent of assets),
Huron‟s large increase in long term investments in 2003 prompted the review.
The review determined Huron did not intend to increase real estate loans. More
specifically, the review found that Huron‟s strategy for the next year was to not
increase fixed first rate mortgages, promote consumer loans and variable rate
HELOC loans. The review did not include an assessment of real estate loans.

The review determined Huron‟s Asset/Liability Management (ALM) program was
not a management priority in prior years because of Huron‟s strong net worth and
earnings combined with its relatively low volume of long term assets. The review
noted Huron improved its ALM program the last two years and that Huron was
using the Brick ALM program73. However, the ALM policy was old and did not
contain adequate risk limits, procedures, etc. The review indicated Huron would
adopt a new policy within 60 days.

The review did include a limited review of Huron‟s commercial loan program due
to a material increase in commercial loans outstanding on the quarterly call


73
   The Brick & Associates ALM system is an analytical tool used to monitor and control interest rate risk and
to test strategies prior to implementation.

                                                     45
reports.74 The review determined Huron did not have an active member
business loan program. As of June 30, 2004, Huron had three commercial loans,
one was a $5 million LOC to CLC to fund short term interim funding of mortgage
loans. The review surmised that the LOC may not have been permissible since
the proceeds could have been used to fund non member loans. The review
recommended the SSA determine whether the LOC was permissible in a state
charter credit union. The review determined the LOC involved credit risk but did
not pose a high IRR risk.

The review noted Huron had a $10 million LOC at the Federal Home Loan Bank
(FHLB) and a $10 million LOC at the corporate credit union.


March 31, 2005

     Michigan SSA           The Michigan SSA conducted an examination of
     Examination            Huron from June 13 through June 17, 2005 using
     (Code 11)              credit union data effective March 31, 2005. The
                            examination rated the Asset Quality CAMEL
                            component a 2 and rated the overall CAMEL a 2.
The examination noted Huron continued to realize above average earnings. The
annualized return on average assets increased the first quarter of 2005 when
compared with 2004 return on average assets. The credit union continued to
experience above average net income and return on assets. In addition, the net
worth position was strong and had increased each period. The examination
noted asset growth had declined since 2003.

The examination assessed loan growth, indicating it was 23 percent in 2004 and
20 percent during the first quarter of 2005. The examination noted real estate
loans, including construction loans, continued to increase as a part of
outstanding loans. Real estate loans increased $18.4 million in 2004 and $4.68
million the first quarter 2005, representing approximately 84 percent of total loan
growth. The examination indicated loan income had declined since 2003;
however, the examination also indicated that performance suggested loan
income would increase above the 2004 level.

The delinquency ratio increased in 2004 and continued to increase the first
quarter 2005. The credit union‟s delinquency ratio was 172 percent higher than
the peer ratio, which was a large difference. However, the net charge-offs ratio
decreased in 2004 and year-to-date 2005 to a level lower than peer. The review
of the collection problem loans disclosed no critical concerns, but did note an
increase in the number of real estate loans reported delinquent and possible
foreclosure procedures. The examiner indicated it was anticipated the
delinquency ratio should improve once the delinquent real estate accounts were
resolved. The review of loans did not disclose any concerns.
74
     Member Business Loans increased from $1.1 million to $4.2 million between March and June 2004

                                                    46
The growing mortgage portfolio increased the interest rate risk exposure with
only 38 percent of the mortgage portfolio re-pricing in three (3) years. The
liquidity position was strained due to the increased volume in mortgage
construction loan financing. Cash and short-term investments decreased since
year-end 2004. The net long-term assets position continued to decline each
period, but remained significantly above average performance for peer credit
unions.

The Asset Liability Management (ALM) program reports suggested interest rate
risk was minimal to moderate and was being adequately managed. The ALM
reports showed the net interest income and net income had adequate
performance after the portfolio‟s market values were shocked. The credit union‟s
March 31, 2005 shocked Net Economic Value (NEV) ratio was 8.85 percent
representing a satisfactory change in the ratio. However, the examination
indicated the ALM area, liquidity and interest rate risk exposure, required
continuous monitoring to ensure performance remained acceptable.

The examination noted Huron was offering construction loans to the membership
and indicated some would be long-term financing once the home was completed.
Management had approved a $30 million line of credit for the construction loan
program. In addition, the Huron Board of Directors authorized management to
increase the LOC to MSC CUSO from $1 million to $2 million. The LOC was
secured by Individual construction loans. Liquidity was diminishing as funds
were used for the construction loans and more federal agency notes were
purchased.

The review of loans did not disclose any critical concerns, but indicated the need
for continuous follow through to ensure all loan documentation was received as
required.


                                 Huron management indicated it was properly
 Huron Management
                                 managing its risk and preparing Huron for an
 Response to the
                                 expected downturn in the Michigan economy. In
 State Examination
                                 addition, Huron management indicated regarding its
                                 liquidity needs, it had established the need to bring
funds into the credit union. Huron management stated it expected to borrow to
initially fund daily liquidity needs until its construction lending became fully
functioning in July. Furthermore, management indicated it was replacing its long
term (30 year) mortgages with shorter term (less than one year) construction
loans.




                                          47
NCUA Review of
Michigan SSA
Examination
(Code 26)                The NCUA reviewer assessed the seven risk areas
                         as follows:

    Compliance Risk – Moderate.
      o No exceptions noted.

    Compliance Risk – Moderate
      o No exceptions noted.

    Credit Risk – Moderate.
       o Delinquency had increased to 1.93 percent or 6.81 percent of net
           worth.
       o Management had allocated $30 million for a construction loan
           program with CLC underwriting the loans.
       o One of the loans may have been impermissible. The proceeds of a
           $5 million LOC to CLC for short interim funding of mortgage loans
           may be used to fund non-member loans
       o The activity in construction lending was a fairly new program that
           could expose the credit union to considerable risk if sufficient
           internal controls were not in place.
       o The NCUA reviewer recommended reviewing investments and
           construction and business lending.

    Interest Rate – Moderate.
        o Net Long Term Assets were high. However, a strong mitigating
           factor was Huron‟s high net worth growth.
        o Huron continued to have strong growth in real estate loans. While
           this may have increased interest rate risk (IRR), the credit union‟s
           ROAA was a very strong 1.69 percent.
        o Refinements were needed in the Asset/Liability Management (ALM)
           program in terms of policies and the structure of Asset/Liability
           Committee (ALCO) meetings.

    Liquidity – Moderate.
       o Strong loan growth was consuming liquidity at a rapid pace, but the
           loan/share ratio remained below the industry average of 64 percent.
       o Year-To-Date loan growth in 2004 and 2005 had exceeded 20
           percent while the rate of share growth had lagged in the 4 – 6
           percent range.

    Reputation Risk – Moderate.
      o No apparent risks noted.


                                    48
       Strategic Risk – Moderate.
          o Strategic planning is not specifically discussed in the examination
              report.
          o With Huron‟s high net worth and strong earnings, presumably
              strategic planning is functional.

       Transaction – Moderate.
          o Huron still did not have an internal audit program which was
             surprising for the size of the credit union.


September 30, 2006

The Michigan SSA and NCUA conducted a joint examination of Huron between
January and April 2007 using credit union data effective September 30, 2006.
The joint examination included a brief review of Huron‟s asset/liability
management (ALM) practices, and existing and prospective risk positions. The
examination resulted in a downgrade of Huron‟s composite CAMEL from 1 to a
CAMEL 5.

                             The examiners determined the Huron Board of
 Joint Michigan SSA
                             Directors and management had committed the
 and NCUA
                             majority of Huron‟s assets to a high risk construction
 Examination
                             loan program in Florida. As of February 8, 2007, the
                             Florida construction loan portfolio comprised 66
percent ($202 million) of the total $302 million loan portfolio. In addition, Huron
had future funding commitments in the Florida loan program of approximately
$65 million.

The examination indicated the impact of the concentration in the Florida
construction loan program directly impaired the future viability of the credit union
putting the safe and sound operation of the credit union in jeopardy. The
examiners detailed significant deficiencies with the Florida loan program, which
included:

       Poor loan quality;
       Inadequate underwriting and documentation;
       Excessive unreported member business loans (MBLs);
       Exorbitant and uncontrolled loan growth of 77 percent in 2005 and 61
       percent in 2006; in an outsourced construction loan program secured by
       properties in Florida.
       Excessive concentration risk in a Florida real estate market;
       Excessive levels of borrowed funds;
       Inadequate oversight of the third party vendor responsible for the Florida
       program.


                                         49
      Significant liquidity risk existed due to a lack of liquidity sources and
      potential loan losses in excess of available net worth.

Following is a discussion of some of the issues examiners identified with the
Florida construction loan program:

Insufficient Oversight of CLC

The examination found that the Huron Board and management failed to
implement a formalized system of oversight for construction and development
lending performed by CLC in accordance with regulatory requirements and failed
to appropriately recognize a majority of loans (approximately 70 percent) as
investor loans or MBLs.

Illegal Field of Membership (FOM)

The Florida construction loan applicants became eligible in the Huron FOM by
joining Huron‟s credit union service organization (CUSO), Learn and Earn Credit,
LLC. However, because Huron management did not complete the process to
admit the CUSO into its FOM, those members who established FOM eligibility
through the CUSO were illegal members. This violation of NCUA bylaws also
violated the Michigan Credit Union Act, Section 352 (1) (a), that indicates each
person belong to a group that is within the credit union‟s field of membership.

Excessive Loan Growth

Total Huron loans increased $83.7 million between 2004 and 2005. In addition,
loans increased an additional $109 million between December 31, 2005 and
December 31, 2006. Management projected total investment in the Florida loan
program of $100 million. However, by February 14, 2007, Florida loans totaled
$267 million including unfunded commitments. The Board exceeded its
approved commitment to the program by $167 million without documented
analysis of the significant variance or the impact of that variance on the safety
and soundness of the credit union.

Misclassification of Member Business Loans (MBL)

Section 723.16 (a) of the NCUA Rules and Regulations set the aggregate limit on
a credit union‟s net MBL balances as the lesser of 1.75 times the credit union‟s
net worth or 12.25% of the credit union‟s total assets. Under this regulation
based on its net worth position, Huron should have only had $42 million in
aggregate MBLs. However, the examination revealed that nearly $187 million of
the Florida construction loans were commercial. The Board and management
failed to limit MBL concentration in the Florida loan program.




                                         50
                             NCUA performed this review in January 2007 as
 ALM and Liquidity
                             part of the joint examination with the Michigan SSA,
 Review
                             using data effective September 30, 2006. NCUA
                             rated Huron‟s liquidity risk high due to the lack of
adequate policies, procedures and measurement abilities in place to adequately
protect the credit union. The review presented results regarding Huron‟s:

      Liquidity Risk Management
      Borrowings
      ALM and Interest Rate Risk
      Strategic Risks

Liquidity Risk Management

The review determined Huron‟s risk management processes were not adequate
for identifying, measuring, monitoring, controlling and reporting its current and
short-term liquidity risks. Specifically, the review revealed:

      Huron‟s liquidity risk measuring and monitoring functions were not
      documented. Huron management did not assign key responsibilities for
      measuring, monitoring and reporting liquidity risks.
      There were no formal procedures in place for reviewing short-term and
      long-term cash flows.
      The policy did not require management to estimate current and future
      liquidity needs.
      There were no formal reporting requirements to provide information
      regarding short-term and long-term liquidity positions to the ALCO or the
      Board.
      The liquidity risk measurement policy target did not indicate potential cash
      shortfalls and liquidity pressures.
      Huron management did not use the ALM model regarding liquidity gap
      reports that considered changing interest rate environments and stressed
      liquidity positions.

Borrowings

Examiners indicated unplanned borrowings can cause concern as to whether
management truly understands the liquidity risk implications of operations. The
review determined Huron had a line of credit (LOC) at Central Corporate Credit
Union (CenCorp) for $65 million. Huron management had regularly borrowed
from this account, maxing out at almost $64 million in October 2006. In
November 2006 Huron management borrowed and subsequently paid off a $55
million 60-day loan. However, at the time of the review, Huron‟s LOC returned to
over $25 million. In addition, Huron had a borrowing capacity with Federal Home
Loan Bank (FHLB) of Indianapolis for $45 million. At the time, Huron had the


                                        51
following short-term borrowings with FHLB with the final maturity date of May
2007:

               Amount              Date taken            Maturity
          $10,000,000                4/28/06             1/30/07
           $6,000,000               11/20/06             4/19/07
          $10,000,000                 1/3/07              4/3/07
          $10,000,000                 1/3/07              5/3/07

Furthermore, Huron management did not report a master listing of outstanding
borrowings versus available lines of credit to the Board or the ALCO.

ALM and Interest Rate Risk

The review determined:

      Huron management conducted monthly modeling and discussed the
      modeling formally with the ALCO on a quarterly basis. However, the
      ALCO did not meet consistently and did not document informal meetings
      in the recent past. Operational and liquidity controls were critical;
      therefore,, the ALCO should have met more frequently, documenting
      actions and discussions regarding overall balance sheet risk management
      practices, strategies, and actions being considered.

      Huron management ran “what-if” scenarios using Brick ALM software and
      frequently provided the results to Brick and Associates for their review and
      consideration. However, management did not retain them or document
      discussions regarding future plans and possible results. It did not appear
      that management used these reports as part of their decision making.

      Huron‟s net worth ratio and its shocked NEV (with shares at par) declined
      from 14.14 percent to 11.34 percent and from 9.49 percent to 6.76 percent
      respectively between January 31, 2006 and October 31, 2006. Huron‟s
      excessive asset growth which diluted its capital position caused this
      substantial decline. At a minimum, Huron management should have been
      comparing results from period to period and noting significant changes.

Strategic Risks

The review determined:

      Officials failed to develop reasonable working budgets, business plans,
      and operational strategies for the successful direction and control of
      Huron.



                                       52
The strategic plan covered the period 2006 through 2008. The Board was
supposed to review and update the plan at least semi-annually. However, the
review did not note any updates in the minutes. In addition, the Board was
supposed to receive periodic (monthly/quarterly) reports on goals. The review
did not find evidence of this either.

The Huron 2006 Operational Objectives stated that Huron was to grow the
Florida construction loans to a maximum level of $100 million by year end 2006.
However, this balance was $191 million at year end.

The credit union adopted an annual budget for 2006. However, its usefulness
was questionable based on current practice. The 2006 budget appeared to be
based on conservative, but reasonable growth trends (12 percent asset and loan
growth – all coming in the indirect construction loan program). However, actual
growth was not controlled; therefore it grew 156 percent from $67 million at year-
end 2005 to $172 million at year-end 2006. If management had used the 2006
budget, Huron management would have had to shut down the Florida
construction loan program.

   The budget narrative stated that it “is designed to give us the liquidity to
   continue moving forward with this profitable program. We will shift the main
   funding of this program from the FHLB and CenCorp to our members.”
   Projections showed reduced borrowings of $6 million. However, Huron
   management‟s reliance on external borrowings grew through those sources
   as well as non-member deposits.

The Board did not demonstrate that they incorporated balance sheet risk
management techniques into their planning process.




                                 53
       Table 3: Summary of Examinations and CAMEL Ratings with Comments
Effective                                                        Asset /
                            Asset      Manage-
Date/         Capital
                           Quality      ment
                                                    Earnings    Liability       Composite
Examiner                                                          Mgt

8/31/1999/
Examiner B
                 1           2            2             1            1              1
             A - The reliance placed on the outside vendor for underwriting the construction
             loans is a concern.
             There was no loan documentation for a number of loans reviewed.
             The loans the vendor presents to you must contain sufficient information and
             documentation to minimize any risk involved.
             M - No Business Loan Policy.
             Incomplete internal control over construction loan program.
             Loan practices in violation of bylaws.
9/30/2000
Examiner B
                 1           2            1             1            1              1
             A – Loan documentation
             Huron oversight of CLC
9/30/2001
Examiner B
                 1           1            1             1            1              1
             Concentration of risk with CLC.
             Misclassification of loans to CLC and Multiple Services CUSO, Inc.
             Violation of Credit Union Rule 15a aggregate limits.
             Violation of Huron Business Loan Policy limits for construction loans and
             concentrations.
9/30/2002
Examiner C
                 1           2            1             1            1              1
             A – Loan losses have increased 13 basis points since year-end 2001 and are
             slightly above the industry average.
             The Delinquent Loans to Loans Ratio increased to 1.23% as of September 30,
             2002.
             Delinquency has increased 20 basis points since year-end 2001 and was above
             the industry average.
             Overall, loan quality appears to be strong.
             Loan files contained evidence of sound credit analysis, current credit reports,
             and proof of lien and insurance.




                                          54
6/30/2003
Examiner D
                 1             2             1             1             2                 1
             A - The net charge-off ratio has increased each period since the year 2000. Increases
             in bankrupt accounts have been a major contributor to rise in loan losses and
             delinquency.
             L - The level of asset growth is exceptionally high and exceeded net worth growth. It
             should subside or decline to a lower level by year-end.
             Continuous monitoring should be given to this area to ensure asset growth is contained
             within an acceptable level and net worth is not further compromised.
3/31/2005
Examiner D
                 1             2             2             1             2                 2
             A - The credit union’s delinquency ratio is 172 percent higher than the peer
             ratio;
             The review of loan exceptions disclosed no critical concerns, but disclosed the
             need for continuous follow through to ensure all loan documentation is received
             as required.
             M - There were no written procedures and policies developed for handling
             mortgage foreclosures.
             L - The growing mortgage portfolio increases the interest rate risk exposure with
             only 38 percent of the mortgage portfolio re-pricing in three (3) years. The
             liquidity position remains strained because of the increased volume in mortgage
             construction loan financing.
             The ALM reports show the net interest income and net income has adequate
             performance after the portfolio’s market values are shocked.
             The credit union’s March 31, 2005 shocked NEV ratio was 8.85 percent
             representing a satisfactory change in the ratio.
             The ALM area, liquidity and interest rate risk exposure, requires continuous
             monitoring to ensure performance remains acceptable.
9/30/2006        5            5            5             2            5                 5
             Given the expected losses in liquidating the Florida loan portfolio, the credit
             union may not survive.
             C – Liquidation of MBLs will eliminate net worth
             A – Reclassification of FL construction loans is egregious violation of NCUA
             723.16(a)
             M – Decision to pursue the construction loan program; lack of due diligence
             E – Losses due to liquidating FL construction loans
             L – Negative liquidity due to excessive borrowing and open Lines of Credit
             (LOC) to fund FL construction loan program




                                             55
Appendix B: Correlation of Michigan State Supervisory Authority Examination Findings and Recommendations to Huron
Deficiencies Noted during the Final Examination of Huron Before it was Declared Insolvent

                             [MANAGEMENT]                      LOAN DOCUMENTATION                  CONCENTRATION OF RISK   MISCLASSIFICATION OF
           ISSUE
                            OVERSIGHT OF CLC                         LACKING                             WITH CLC                 LOANS
         Exam
         Effective                                                      Findings/Statements/Recommendations
         Date
         Aug 31,      Incomplete internal control over the   There was no loan documentation
         1999         construction loan program.             for a number of loans75 reviewed.




                      The reliance placed on the outside     The loans CLC presents to Huron
                      vendor for underwriting the            must contain sufficient information
                      construction loans is a concern.       and documentation to minimize any
                                                             risk involved.




         Sep 30,      Unsatisfactory internal control and    Huron loan files were incomplete.
         2000         oversight of CLC by Huron
                      management.



                      Management allowed the vendor
                      and the title company much of the
                      responsibility for making and
                      overseeing construction loans.




75
     The loans included real estate loans.

                                                                                         56
          Management relied on photocopies
          and facsimiles from the vendor –
          the exam noted this as a safety and
          soundness concern.



          Examiners noted that during the
          past examination, management did
          not fully agree with the amount of
          oversight necessary to control the
          construction loans. However, they
          believed that they convinced
          management this time that they had
          to rethink their controls over the
          construction loan vendor and be
          more cautious




Sep 30,   The exam indicated the board of            The exam noted concerns with the       The exam noted concerns with
2001      directors was to continue the close        concentration of loans and credit to   misclassification of loans to CLC
          oversight of CLC.                          CLC.                                   and Multiple Services Credit Union
                                                                                            Services Organization, Inc

                                                     The additional lines of credit         The exam indicated Huron should
                                                     granted since the last examination     have classified two loans to CLC as
                                                     increased the concentration of risk.   business loans.




                                                57
                                                                                                                             The exam directed management to
                                                                                                                             revise the Call Report for
                                                                                                                             September 30, 2001 to reflect the
                                                                                                                             correct classification of business
                                                                                                                             loans




Sep 30,   No issues or concerns were noted in   A review of a sample of … real                                               The exam indicated one of the
2002      the review of the agreement with      estate ,… and business loans                                                 loans addressed in the prior exam
          CLC.                                  revealed that loan files contained                                           was still considered a business loan.
                                                evidence of sound credit analysis,
                                                current credit reports, and proof of                                         OIG Note: There was no indication
                                                lien and insurance                                                           that Huron reclassified the loan in
                                                                                                                             the Call Report.


Jun 30,                                         The exam loan review did not                                                 OIG Note: There was no indication
2003                                            disclose any critical concerns or                                            that Huron reclassified the loan
                                                issues in the underwriting.                                                  from the Sept 2001 exam in the Call
                                                                                                                             Report.
                                        OIG Note: We reviewed one exam
                                        file of real estate loans that did not
                                        indicate any documentation issues.
                                        However, we also reviewed the
                                        loan exceptions exam file that
                                        contained real estate loans, which
                                        did reveal documentation issues.
          NCUA Code 26 recommended a construction and business lending review.
Mar 31,                                                                                                                       OIG Note: There was no
2005                                                                                                                          indication that Huron reclassified
                                                                                                                              the loan from the Sept 2001 exam
                                                                                                                              in the Call Report.

          While this exam did not note any of the prior issues with oversight of CLC, loan documentation and loan classifications. NCUA identified significant
          issues with Michigan loans, some of which dated back to May 1999. The issues included loan documentation issues, misclassified loans and
          questionable loan practices.



                                                                              58
          . NCUA Code 26 recommended a construction and business lending review
Sep 30,   Inadequate oversight of the third Poor loan quality.                Excessive concentration risk in a   Excessive unreported member
2006      party vendor responsible for the                                    Florida real estate market.         business loans (outstanding MBLs
          Florida program.                                                                                        were over four times the regulatory
                                                                                                                  limit).

          Inadequate due diligence for the       Inadequate underwriting and
          Florida construction loan member       documentation.
          identification program.
          Underwriting personnel did not
          adequately verify and document
          identities or require that borrowers
          fill out membership cards
          completely




                                                                               59
Appendix C: Chronology of Events Surrounding Huron’s Relationship and Agreements with CLC and the Florida Construction
Loan Program


                                                                            2003
  2003                                                                                                                                        October 27
                January 31
                                                                                                                                           (eff June 30, 2003)
          Huron ratifies agreement to                                                                                                    Michigan SSA conducts
          fund $30 million (+) in                                                                                                        Code 11 exam
          Florida construction loans

                                                                            2004
 2004                                      February 3                          September 16                 September 17
                                        CLC and Huron                        NCUA completes June     Huron ratifies agreement for
                                        prepare agreement                    IRR Review              CLC to service first mortgages
                                        for CLC to service                                           and interim construction loans.
                                        first mortgages and                                          Potential $50 million (+) loan
                                        interim construction                                         portfolio.
                                        loans

                                                                            2005
 2005                                                                              June 13           September 19                       December
                                           (On or about) June 1
                                                                             (eff March 31, 2005)
                                        Huron begins funding FL loans        Michigan SSA conducts   Huron responds to    NCUA examiner “investigated a noted
                                                                             Code 11 exam            March exam           change in the balance sheet when Huron’s
                                                                                                                          real estate loan volume first started to
                                                                                                                          increase”

                                                                            2006
 2006                                                 April
                                        NCUA questions rapid construction
                                        loan growth
                                        Huron responds with detailed
                                        overview of the construction loan
                                        program



                                                                             60
Appendix D: Summary of the First Three Stages of a Financial Institution’s Failure


    I: Strategy     Industry   NCUA   Huron         II: Growth         Industry    NCUA    Huron          III: Deterioration          Industry   NCUA   Huron

   Change in                                  Violations of laws and                               Increased resistance to
                       X        X      X                                  X            X    X                                            X        X
   philosophy                                 regulations                                          supervisory concerns
   Aggressive                                 Insider abuse                                        Independent public accountant
                       X        X      X                                  X            X                                                 X        X
   business plan                                                                                   problems
   Inattentive                                Disregard for                                        Memorandum of
   board               X        X      X      examiner’s concerns         X            X           Agreement/Board of Director           X
                                                                                                   Resolutions
   Emergence of                               Overpayment for                                      Withholding documents
   dominant            X        X      X      services and assets                      X                                                          X      X
   person
   High-risk                                  Poor/Reduced risk                                    Distortion of financial records
                       X        X      X                                  X            X    X                                                     X      X
   lending                                    diversification
   Lack of                                    Financially strong                                   Earnings plateau/decline
   expertise in                               image
   high risk           X        X      X                                  X            X    X                                            X        X
   niche lending
   area
   Computer                                   Rapid growth in high-                                Inadequate/underfunded
   conversion          X                      risk niche area             X            X    X      Allowance for Loan and Lease          X        X      X
                                                                                                   Losses (ALLL)
   Lack of                                    High level of loan fee                               Capital impaired
                       X               X                                  X            X                                                 X
   strategic plan                             income
   Weak risk                                  Poor credit                                          Emergence of loan problems
   management                                 administration                                       worsened by a declining
                       X        X      X                                  X            X    X                                            X        X      X
                                                                                                   economy / Overwhelmed with
                                                                                                   delinquent loans
   Weak internal                                                                                   Significant loan amounts by type
   controls for        X        X      X                                                                                                 X               X
   loans
   Liberal                                                                                         Loan Growth plateaus
                                X      X                                                                                                 X               X
   Underwriting
   Aggressive
                       X               X
   loan growth




                                                                                  61
Appendix E: NCUA Management Comments

VIA E-Mail

TO:          William DeSarno, Inspector General
             Office of Inspector General

FROM:        Executive Director J. Leonard Skiles /S/
             Office of the Executive Director

SUBJ:        Response to Material Loss Review of Huron River Area Credit Union

DATE:        November 19, 2008


This memorandum responds to your request for review and comments on the OIG
report titled Material Loss Review of Huron River Area Credit Union (MLR).

I concur with the recommendation NCUA aggressively investigate and protect against
perceived risk Federally Insured State Credit Unions (FISCUs) may pose to the
insurance fund. NCUA recently reinforced the need for aggressive investigation and
protection against perceived risks in Letter to Credit Unions No.: 08-CU-20
Evaluating Current Risks to Credit Unions, dated August 2008. This letter includes
supervisory guidance given to NCUA examiners about diligent examination and
supervision when potential risk to a credit union is identified.

Additionally, I want to clarify examination reports referenced in the MLR are SSA
Michigan examination reports not joint SSA/NCUA examinations. NCUA did perform
two on-site contacts during the time period the MLR covers. NCUA performed an
interest rate risk review in 2004 and participated in a joint SSA/NCUA examination
and report in 2007. NCUA did complete SSA examination report reviews for the MLR
time period.

We concur in principle with the suggestion made on page 31 of the report where the
regional Division of Supervision (DOS) provides a secondary review of national risk
reports and off-site monitoring for individual cases. However, if adopted on a national
level, the specific procedures should be left to each regional director to determine the
proper flow of information through their chain of command.

Thank you for the opportunity to review and comment on the Material Loss Review of
Huron River Area Credit Union.

cc:   Director David M. Marquis
      Office of Examination and Insurance

      Assistant Inspector General for Audits Jim Hagen
      Office of Inspector General
                                          62
